APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
_________
No. 18-1214
_________
IN RE: THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PUERTO RICO, AS REPRESENTATIVE FOR
THE COMMONWEALTH OF PUERTO RICO; THE
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, AS REPRESENTATIVE FOR THE PUERTO
RICO HIGHWAYS AND TRANSPORTATION AUTHORITY,
Debtors,

_________
AMBAC ASSURANCE CORPORATION,

Plaintiff, Appellant,
v.
COMMONWEALTH OF PUERTO RICO, THROUGH THE
SECRETARY OF JUSTICE; FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD; PUERTO RICO FISCAL AGENCY
AND FINANCIAL ADVISORY AUTHORITY, THROUGH THE
SECRETARY OF JUSTICE; PUERTO RICO HIGHWAYS AND
TRANSPORTATION AUTHORITY, THROUGH THE
SECRETARY OF JUSTICE; RICARDO ROSSELLO NEVARES,
THROUGH THE SECRETARY OF JUSTICE; RAUL
MALDONADO GAUTIER, THROUGH THE SECRETARY OF
JUSTICE; JOSE IVAN MARRERO-ROSADO; JOSE B.
CARRION, III; CHRISTIAN SOBRINO VEGA; ANDREW G.
BIGGS; CARLOS M. GARCIA; ARTHUR J. GONZALEZ;

2a
JOSE R. GONZALEZ; ANA J. MATOSANTOS; DAVID A.
SKEEL, JR.; ELIAS SANCHEZ,
Defendants, Appellees,
OFFICIAL COMMITTEE OF UNSECURED CREDITORS,
Intervenor,
JOHN DOES 1–12,
_________

Defendants.

APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
[Hon. Laura Taylor Swain, U.S. District Judge*]
_________
Before
Torruella, Lipez, and Kayatta,
Circuit Judges.
_________
Atara Miller, with whom Dennis F. Dunne, Andrew
M. Leblanc, Grant F. Mainland, Milbank, Tweed,
Hadley & McCloy LLP, Roberto A. Cámara-Fuertes,
and Ferraiouli LLC were on brief, for appellant.
Mark C. Ellenberg, Howard R. Hawkins, Jr., Lary
Stromfeld, Ellen V. Holloman, Gillian Groarke
Burns, Thomas J. Curtin, Casey Servais, Cadwalder,
*

Of the Southern District of New York, sitting by
designation.

3a
Wickersham & Taft LLP, Heriberto Burgos Pérez,
Ricardo F. Casellas-Sánchez, Diana Pérez-Seda,
Casellas Alcover & Burgos, Maria E. Picó, Rexach &
Picó, CSP, Martin A. Sosland, Jason W. Callen, and
Butler Snow LLP on brief for Assured Guaranty
Corporation,
Assured
Guaranty
Municipal
Corporation, and Financial Guaranty Insurance
Company, amici curiae.
Vincent Levy, Daniel M. Sullivan, Margot Hoppin,
Evan H. Stein, and Holwell Shuster & Goldberg LLP
on brief for Professor John W. Ely, Jr., amicus
curiae.
Bruce R. Zirinsky and Zirinsky Law Partners LLC
on brief for Representative Rob Bishop, amicus
curiae.
Martin J. Bienenstock, with whom Stephen L.
Ratner, Mark D. Harris, Michael A. Firestein, Lary
Alan Rappaport, Timothy W. Mungovan, John E.
Roberts, Proskauer Rose LLP, Hermann D. BauerAlvarez, and O’Neill & Borges LLC were on brief, for
appellee Financial Oversight and Management
Board for Puerto Rico.
Peter M. Friedman, with whom Isaías SánchezBáez, Solicitor General of Puerto Rico, Carlos LugoFiol, John J. Rapisardi, Elizabeth L. McKeen, Ashley
M. Pavel, O’Melveny & Myers LLP, Luis Marini, and
Marini Pietrantoni Muñoz, LLC were on brief, for
appellees the Puerto Rico Fiscal Agency and
Financial Advisory Authority, Christian Sobrino
Vega, Ricardo Rosselló Nevares, Raul Maldonado
Gautier, and Jose Ivan Marrero Rosado.

4a
Paul S. Samson, Riemer & Braunstein LLP,
Gregory E. Garman, Erick T. Gjerdingen, and
Garman Turner Gordon LLP on brief for
Congressman Raúl Grijalva, ranking member of the
House Committee on Natural Resources, and
Congresswoman Nydia Velázquez, member of the
House Committee on Natural Resources, amici
curiae.
Luc A. Despins, with whom Nicholas A. Bassett,
Paul Hastings LLP, Juan J. Casillas Ayala, and
Casillas, Santiago & Torres LLC were on brief, for
the Official Committee of Unsecured Creditors of All
Puerto Rico Title III Debtors (Other than COFINA).
_________
June 24, 2019
_________
KAYATTA, Circuit Judge. Ambac is a financial
guaranty insurer and individual holder of Puerto
Rico Highways and Transportation Authority (HTA)
bonds. In this Title III adversary proceeding arising
within HTA’s debt-adjustment proceedings pursuant
to the Puerto Rico Oversight, Management, and
Economic Stability Act (PROMESA), Ambac brings
constitutional and statutory challenges to measures
the Commonwealth of Puerto Rico has taken to block
payments to holders of HTA bonds. Because the Title
III court lacks the authority to grant the declaratory
and injunctive relief that Ambac seeks, we affirm the
dismissal of Ambac’s claims.

5a
I.
Because this appeal comes before us from the
dismissal of Ambac’s constitutional and statutory
claims, “we take as true the facts presented in
[Ambac’s] complaint and draw all reasonable
inferences in [its] favor.” Maloy v. Ballori-Lage, 744
F.3d 250, 251 (1st Cir. 2014).
HTA develops, operates, and maintains Puerto
Rico’s highways and transportation infrastructure. It
has the ability to issue bonds to finance its
operations pursuant to the Puerto Rico Highways
and Transportation Authority Act, P.R. Laws Ann.
tit. 9, § 2012. In 1968 and 1998, HTA adopted
resolutions issuing bonds. The resolutions set forth
the contractual relationship between HTA and
bondholders and “pledge[]” for the payment of
“principal,
interest
and
premiums”
certain
“[r]evenues” and “funds received by [HTA] . . . from
the Commonwealth” (referred to here as “HTA
revenues”). P.R. Highways & Transp. Authority,
Resolution No. 98-06, at 58 [hereinafter 1998
Resolution]; see also P.R. Highways & Transp.
Authority, Resolution No. 68-18, at 50 [hereinafter
1968 Resolution]. The HTA revenues include, among
other funds: (1) “all moneys received by [HTA] on
account of the crude oil tax allocated to [HTA] by Act
No. 34”; (2) proceeds from gasoline and oil taxes and
from annual motor-vehicle license fees; (3) “any tolls
or other charges imposed by [HTA]”; and (4) “the
proceeds of any other taxes, fees or charges” that the
Puerto Rico legislature authorizes for payment of
“principal of and interest on bonds or other
obligations of [HTA].” 1998 Resolution at 7, 13; see

6a
also 1968 Resolution at 11 (employing a similar
definition of HTA revenues).
The bond resolutions require HTA to deposit the
HTA revenues on a monthly basis with a fiscal agent,
the Bank of New York Mellon, which holds the funds
in trust for bondholders and then pays bondholders
in accordance with the terms of the resolutions. 1998
Resolution at 47; 1968 Resolution at 42. The
resolutions further provide that the bondholders’
interest in the HTA revenues is paramount, subject
to one qualification: Commonwealth law requires
that revenues be used to first pay interest and
amortization of the public debt (i.e., general
obligation bonds) in years in which other available
resources are insufficient to meet appropriations. See
P.R. Const. art. VI, § 8; see also 1998 Resolution at
19; 1968 Resolution at 17.1
A succession of related events upset the parties’
contractual arrangement concerning the HTA
revenues, giving rise to this lawsuit. In brief, the
Commonwealth and Governor of Puerto Rico
promulgated a series of laws and executive orders -known as the “Moratorium Laws and Orders” -- that
1

Ambac alleges that the HTA revenues fall within the
category of “special revenues” as defined in the municipalbankruptcy code, see 11 U.S.C. § 902(2); 48 U.S.C. § 2161(a)
(incorporating 11 U.S.C. § 902 into PROMESA), and that it has
a security interest in all such revenues. Intervenor the Official
Committee of Unsecured Creditors of All Puerto Rico Title III
Debtors (Other than COFINA) contests at least the latter point
and urges us to construe Ambac’s security interest narrowly as
extending only to HTA revenues actually deposited with the
fiscal agent. As will become evident, the resolution of this issue
is not necessary to settle the immediate appeal.

7a
halted the flow of revenues from the Commonwealth
and HTA to the fiscal agent for payment to
bondholders and, instead, directed those revenues to
the payment of other, ordinary Commonwealth
expenses. 2 The Moratorium Laws and Orders also
stayed creditor remedies to enforce their contractual
rights under the bondholder resolutions.
Thereafter,
the
Financial
Oversight
and
Management Board for Puerto Rico (“Oversight
Board”) -- established by PROMESA, 48 U.S.C.
§§ 2101–2241, and tasked with “provid[ing] a method
for [Puerto Rico] to achieve fiscal responsibility and
access to the capital markets,” id. § 2121(a) -certified a “Fiscal Plan” for Puerto Rico to which all
Commonwealth laws and budgets must conform, see
id. §§ 2141(c), 2144(a)–(c). The Fiscal Plan calls for
the continued diversion of HTA revenues over the
course of the next decade. 3 The Oversight Board,
pursuant to its authority under section 304 of
PROMESA, id. § 2164(a), subsequently initiated
Title III debt-adjustment proceedings on behalf of
HTA, which also triggered an automatic stay of
actions to collect preexisting debts from the agency,
11 U.S.C. § 362(a)(1), (5); 48 U.S.C. § 2161(a)
2

See, e.g., Puerto Rico Emergency Moratorium and Financial
Rehabilitation Act, P.R. Laws Ann. tit. 3, §§ 9282–9288
(codifying
then-Governor
Alejandro
García
Padilla’s
moratorium orders and granting him the authority to suspend
the Commonwealth’s debt obligations); see also Puerto Rico
Financial Emergency and Fiscal Responsibility Act, P.R. Laws
Ann. tit. 3, §§ 9431–9437 (indefinitely continuing the
moratorium orders).
3

In April 2018, the Oversight Board certified a new Fiscal
Plan that continues the diversion of HTA revenues.

8a
(incorporating 11 U.S.C. § 362). The Puerto Rico
Fiscal Agency and Financial Advisory Authority
(AAFAF) then ordered the Bank of New York Mellon,
as fiscal agent, to halt payments to HTA
bondholders, reasoning that the funds held in trust
are still the property of the Commonwealth and their
application to HTA bonds would violate the
automatic stay. In July 2017, HTA defaulted on a
bond payment in the amount of $219 million.
Ambac, which is both a holder and insurer of the
defaulted HTA bonds, commenced this adversary
action in the so-called “Title III court,” bringing
Contracts Clause, Takings Clause, Due Process
Clause, preemption, and statutory challenges to the
Commonwealth’s actions. Ambac asked that court to
declare as null the Moratorium Laws and Orders and
the Fiscal Plan, and it sought a negative injunction
preventing the Commonwealth from continuing to
impair the flow of HTA revenues to bondholders. The
Title III court carefully reviewed and rejected all of
Ambac’s requested relief, dismissing the complaint
with prejudice. See Ambac Assurance Corp. v. Puerto
Rico (In re Fin. Oversight & Mgmt. Bd. for P.R.), 297
F. Supp. 3d 269 (D.P.R. 2018). Ambac then filed this
timely appeal.
II.
Two sections of PROMESA prevent the Title III
court from granting the relief that Ambac requests in
this adversary proceeding.
A.
Section 106 of PROMESA provides: “There shall be
no jurisdiction in any United States district court to

9a
review challenges to the Oversight Board’s
certification determinations under this chapter.” 48
U.S.C. § 2126(e). As this court recently explained,
“PROMESA grants the Board exclusive authority to
certify Fiscal Plans and Territory Budgets for Puerto
Rico. It then insulates those certification decisions
from judicial review . . . .” Méndez-Núñez v. Fin.
Oversight & Mgmt. Bd. for P.R., (In re Fin.
Oversight & Mgmt. Bd. for P.R.), 916 F.3d 98, 112
(1st Cir. 2019). In its First Amended Complaint,
Ambac repeatedly requests “injunctive relief
invalidating the Oversight Board’s certification of
the Fiscal Plan.” This relief is plainly precluded as a
result of section 106 and our holding in MéndezNúñez.
B.
Section 305 of PROMESA states, in relevant part:
[N]otwithstanding any power of the court,
unless the Oversight Board consents or the
plan so provides, the court may not, by any
stay, order, or decree, in the case or otherwise,
interfere with -- (1) any of the political or
governmental powers of the debtor; (2) any of
the property or revenues of the debtor; or (3)
the use or enjoyment by the debtor of any
income-producing property.
48 U.S.C. § 2165. The provision mimics, in all
pertinent respects, the analogous section 904 of the
municipal-bankruptcy code. See 11 U.S.C. § 904.
Ambac seeks declaratory and injunctive relief that
would require the Title III court to directly interfere
with the “political or governmental powers” and

10a
“property or revenues” of the Commonwealth and
HTA, at least as to those HTA revenues that have
yet to be transferred to the fiscal agent and remain
in the possession of the Commonwealth. Specifically,
Ambac requests injunctive relief that would compel
the Commonwealth’s remittance of toll revenues,
vehicles fees, and excise taxes to HTA and then to
the Bank of New York Mellon for payment to
bondholders. Ambac hopes to achieve much the same
end by obtaining a declaration that the
Commonwealth’s continued divergence of these
funds pursuant to the Moratorium Laws and Orders
and the Fiscal Plan is unconstitutional, preempted
under section 303 of PROMESA, and in violation of
sections 922(d) and 928(a) of the municipalbankruptcy code (as incorporated into PROMESA via
48 U.S.C. § 2161(a)).
In Financial Oversight and Management Board for
Puerto Rico v. Ad Hoc Group of Puerto Rico Electric
Power Authority Bondholders, we held that although
section 305 prohibits a Title III court from “directly
interfering with the listed powers and properties of
[a Commonwealth agency],” it does not bar a Title III
court from granting a reprieve from the automatic
stay under 11 U.S.C. § 362 to allow another court,
pursuant to Commonwealth law, to place a
Commonwealth entity into receivership. PREPA, 899
F.3d 13, 19 (1st Cir. 2018). In doing so, we recognized
that granting such relief would require a Title III
court to “merely stand[] aside” to “allow[] the
processes of . . . territorial law to operate in normal
course.” Id. at 21. Here, by contrast, Ambac’s
requested relief would require the Title III court
itself to direct the Commonwealth’s use of its

11a
revenues and property in a manner that contravenes
the expressed will of the Commonwealth legislature,
the Governor of Puerto Rico, and the Oversight
Board. On its face, the text of section 305 bars the
Title III court from granting Ambac such relief
absent consent from the Oversight Board or unless
the Fiscal Plan so provides. See 48 U.S.C. § 2165.
This conclusion accords with our recent decision in
Aurelius Capital Master, Ltd. v. Puerto Rico, in
which we held that section 305 bars the Title III
court from preventing the Commonwealth from using
certain Commonwealth revenues for the payment of
general-obligation debt. 919 F.3d 638, 648–49 (1st
Cir. 2019). It also accords with how courts have
interpreted the analogous section 904 of the
municipal-bankruptcy code. See Lyda v. City of
Detroit (In re City of Detroit), 841 F.3d 684, 696 (6th
Cir. 2016) (holding that section 904 prohibits the
court overseeing Detroit’s bankruptcy from awarding
residents an injunction that would have restored
water service in the city); Ass’n of Retired Emps. of
Stockton v. City of Stockton (In re City of Stockton),
478 B.R. 8, 20–22 (Bankr. E.D. Cal. 2012)
(concluding that section 904 precludes enjoining the
city from implementing a reduction in retiree health
benefits); see generally 6 Collier on Bankruptcy
¶ 904.01 (Richard Levin & Henry J. Sommer eds.
16th ed. 2018) [hereinafter Collier] (“[T]he
prohibition of this section is absolute. . . . The
question is . . . whether the order improperly
interferes with the political or governmental affairs
or property of the debtor. If it does, then no matter
what authority is used to support it, the order runs
afoul of section 904.”).

12a
The context in which Congress passed section 904
provides further credence to our reading of section
305. In Ashton v. Cameron County Water
Improvement District, the Supreme Court struck
down a predecessor to the modern municipalbankruptcy statute, reasoning that it allowed a
federal bankruptcy court to impermissibly intrude
upon the sovereignty of states and their subdivisions.
298 U.S. 513, 531 (1936) (“If obligations of states or
their political subdivisions may be subjected to the
interference here attempted, they are no longer free
to manage their own affairs . . . .”). By including
section 904 (and its corollary, 11 U.S.C. § 903, which
explicitly reserves power to the states to control
municipalities within their territories), Congress
intended to give the bankruptcy courts “only enough
jurisdiction to provide meaningful assistance to
municipalities that require it, not to address the
policy matters that such municipalities control.”
Lyda, 841 F.3d at 695 (quoting In re Addison Cmty.
Hosp. Auth., 175 B.R. 646, 649 (Bankr. E.D. Mich.
1994)); see also 6 Collier ¶ 904.LH.
Notwithstanding the foregoing, Ambac offers four
reasons why section 305 should not preclude us from
affording it the injunctive and declaratory relief that
it seeks in this case.
First, Ambac argues that nothing in section 305
addresses pledged-special-revenue bonds in Title III
proceedings. Accordingly, it reasons, sections 922(d)
and 928(a) control the treatment and disposition of
pledged special revenues in Title III bankruptcy
cases, and section 305 therefore poses no bar to the
Title III court’s ability to grant its requested relief.

13a
Section 922(d) provides that “[n]otwithstanding
section 362 of this title and subsection (a) of this
section, a petition filed under this chapter does not
operate as a stay of application of pledged special
revenues . . . to payment of indebtedness secured by
such revenues.” 11 U.S.C. § 922(d). And section
928(a) states: “Notwithstanding section 552(a) of this
title . . . , special revenues acquired by the debtor
after the commencement of the case shall remain
subject to any lien resulting from any security
agreement entered into by the debtor before the
commencement of the case.” Id. § 928(a). It is true
that section 305, in contrast to these provisions, does
not specifically mention “pledged special revenues.”
But neither does it explicitly reference any other
type of municipal debt or substantive form of
interference with a debtor’s political powers,
property, or revenues. Analogously, though a sign
might simply state “No Smoking Allowed,” no one
would reasonably construe such a prohibition as
permitting an individual to light up a cigar merely
because the sign makes no specific reference to
rolled, tobacco-filled cartridges of the larger,
unfiltered variety. Rather, any reasonable reader
would conclude that the broad language fairly
communicates a reach that plainly encompasses the
narrower application; likewise, Ambac’s requested
relief that would direct the Commonwealth to turn
over its property to bondholders falls within the
ambit of section 305’s sweeping language even if we
assume that the funds in question are pledged
special revenues within the meaning of sections
922(d) and 928(a).

14a
Of course, if section 305 directly conflicted with
sections 922(d) or 928(a) of the municipal bankruptcy
code, one might turn to “the ancient canon of
interpretation . . . generalia specialibus non derogant
(the ‘specific governs the general’).” Aurelius Inv.,
LLC v. Puerto Rico, 915 F.3d 838, 851 (1st Cir. 2019).
Even then, though, section 305’s preface that its
terms apply “notwithstanding any power of the
court” might well render that rule of construction
inapplicable. In any event, there is no real conflict
between the sections pertaining to pledged special
revenues and section 305. The former two provisions
address the relationship between the automatic stay
and the application of pledged special revenues to a
debt. They say nothing at all about the subject of
section 305, i.e., whether the Title III court itself has
the power to require a debtor to turn over certain
revenues to a creditor. See Assured Guar. Corp. v.
Fin. Oversight & Mgmt. Bd. for P.R. (In re Fin.
Oversight & Mgmt. Bd. for P.R.), 919 F.3d 121, 131
n.12 (1st Cir. 2019).
Second, Ambac alleges that our interpretation of
section 305 would “effectively wipe out” sections
922(d) and 928(a) of the municipal bankruptcy code.
It argues that these provisions mandate the debtor’s
continued payment of special revenues pursuant to
the terms of the bondholder agreements and that
section 922(d) excepts from the automatic stay a
creditor’s action seeking to enforce that mandate.
Our recent decision in Assured Guaranty rejected
both of these contentions. See Assured Guar. Corp.,
919 F.3d at 127–32. Section 928(a) simply does what
it says: It orders that “special revenues acquired by
the debtor after the commencement of the case shall

15a
remain subject to any lien resulting from any
security agreement entered into by the debtor before
the commencement of the case.” 11 U.S.C. § 928(a);
see also Assured Guar. Corp., 919 F.3d at 127–29.
Section 922(d), in turn, does provide an exception to
the automatic stay, but not as broadly as Ambac
contends. The automatic stay encompasses a large
universe of creditor actions that might affect the
debtor, including not just lawsuits and enforcement
actions, but also “any post-petition collection
activities against the debtor.” S. Rep. No. 100-506, at
11 (1988) (emphasis added); see also 11 U.S.C.
§ 362(a)(3) (barring “any act . . . to exercise control
over property of the [debtor]”); 11 U.S.C. § 362(a)(4)
(prohibiting “any act to create, perfect, or enforce any
lien against property of the [debtor]”); 11 U.S.C.
§ 362(a)(6) (proscribing “any act to collect, assess, or
recover a claim against the debtor that arose before
the commencement of the [bankruptcy] case”). This
broad universe of stayed actions was understood to
include a secured creditor’s application of collateral
in its possession to the debtor’s outstanding debt.
See, e.g., 3 Collier ¶ 362.03 (“[I]nnocent conduct such
as the cashing of checks received from account
debtors of accounts assigned as security may be a
technical violation [of section 362(a)(6)].”); id. (“[T]he
stay applies to secured creditors in possession of
collateral and to collateral in possession of a
custodian.”); see also S. Rep. No. 100-506, at 11 (“The
automatic stay of Bankruptcy Code Section 362 is
extremely broad, preventing any post-petition
collection activities against the debtor, including
application of the debtor’s funds held by a secured
lender to secure indebtedness.” (emphasis added));
Metromedia Fiber Network Servs. v. Lexent, Inc. (In

16a
re Metromedia Fiber Network, Inc.), 290 B.R. 487,
493 (Bankr. S.D.N.Y. 2003); In re Reed, 102 B.R.
243, 245 (Bankr. E.D. Okla. 1989). Congress in
section 922(d) eliminated any possibility that the
stay would prevent the “application of pledged
special revenues . . . to payment of indebtedness.” 11
U.S.C. § 922(d). But nothing in that language
suggests that Congress also excepted the plethora of
other actions to which the automatic stay applies,
most obviously and notably suits to compel payment.
Ambac next alleges that section 305 does not
prevent the Title III court from granting its
requested injunctive and declaratory relief because
the Oversight Board consented to such interference
by initiating Title III bankruptcy proceedings. But in
PREPA we rejected the argument that the mere
filing of a Title III petition might constitute such
consent, reasoning that to rule otherwise would be to
“render section 305 a nullity.” PREPA, 899 F.3d at
19. We see no principled reason to reach a different
conclusion just because the proposed interference in
this case may involve pledged special revenues.
Finally, Ambac argues that its requested
declaratory relief is not actually coercive and, thus,
would not impermissibly interfere with the
governmental affairs or property of HTA and the
Commonwealth. However, we declined to endorse
this argument in another recent PROMESA case, see
Aurelius Capital Masters, Ltd., 919 F.3d at 648, as
did the Sixth Circuit in the municipal-bankruptcy
setting, see Lyda, 841 F.3d at 696 (“Preliminary or
permanent injunctions directing [the City] to stop
terminations or to provide water service . . .
necessarily interfere[] . . . . A declaration that [the

17a
City’s] practices are illegal or unconstitutional does
the same.” (citation omitted) (internal quotation
marks omitted)).
At oral argument, counsel for Ambac also raised
the possibility that our interpretation of section 305
would raise due process concerns because Ambac
would be left without a venue in which to bring its
constitutional claims. But nothing in our
holding today suggests that Ambac cannot seek
traditional stay relief pursuant to 11 U.S.C. § 362
and raise its constitutional and statutory arguments
in a separate action. As we explained in PREPA,
section 305 “only bar[s] the Title III court itself from
directly interfering with the debtor’s powers or
property.” 899 F.3d at 21. It does not, however,
impose any such restraint on another court.
Accordingly, we hold that the Title III court lacks
the authority to grant the declaratory and injunctive
relief that Ambac seeks in this case.4

4

In its First Amended Complaint, Ambac alleges that the
Bank of New York Mellon has not applied approximately $69
million in funds that it is holding in trust for HTA bondholders,
citing AAFAF’s letter directing it to retain these funds. And in
one cursory footnote in its brief, Ambac suggests that section
305 might not bar the Title III court from ordering the
disbursement of pledged special revenues that are already in
the hands of the fiscal agent. Ambac, however, does nothing
further to develop this argument, so we treat it as waived and
we do not consider it in this appeal. See United States v.
Zannino, 895 F.2d 1, 17 (1st Cir. 1990) (“[I]ssues adverted to in
a perfunctory manner, unaccompanied by some effort at
developed argumentation, are deemed waived.”).

18a
III.
For the
affirmed.

foregoing

reasons,

the

judgment

is

19a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
_________
In re:
THE FINANCIAL OVERSIGHT AND
MANAGEMENT BOARD FOR PUERTO RICO,
as representative of
THE COMMONWEALTH OF PUERTO RICO, et al.,
Debtors.1
_________
PROMESA
Title III
No. 17 BK 3283-LTS
(Jointly Administered)
_________
1

The Debtors in these Title III Cases, along with each
Debtor’s respective Title III case number and the last four (4)
digits of each Debtor’s federal tax identification number, as
applicable, are the (i) Commonwealth of Puerto Rico
(Bankruptcy Case No. 17 BK 3283-LTS) (Last Four Digits of
Federal Tax ID: 3481); (ii) Puerto Rico Sales Tax Financing
Corporation (“COFINA”) (Bankruptcy Case No. 17 BK 3284LTS) (Last Four Digits of Federal Tax ID: 8474); (iii) Puerto
Rico Highways and Transportation Authority (“HTA”)
(Bankruptcy Case No. 17 BK 3567-LTS) (Last Four Digits of
Federal Tax ID: 3808); (iv) Employees Retirement System of the
Government of the Commonwealth of Puerto Rico (“ERS”)
(Bankruptcy Case No. 17 BK 3566-LTS) (Last Four Digits of
Federal Tax ID: 9686); and (v) Puerto Rico Electric Power
Authority (“PREPA”) (Bankruptcy Case No. 17 BK 4780-LTS)
(Last Four Digits of Federal Tax ID: 3747) (Title III case
numbers are listed as Bankruptcy Case numbers due to
software limitations).

20a
AMBAC ASSURANCE CORPORATION,
Plaintiff,
v.
COMMONWEALTH OF PUERTO RICO, FINANCIAL
OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, PUERTO RICO FISCAL AGENCY AND
FINANCIAL ADVISORY AUTHORITY, PUERTO RICO
HIGHWAYS AND TRANSPORTATION AUTHORITY,
HON. RICARDO ROSSELLÓ NEVARES, RAÚL
MALDONADO GAUTIER, JOSÉ IVÁN MARRERO
ROSADO, GERARDO JOSÉ PORTELA FRANCO, JOSÉ
B. CARRIÓN III, ANDREW G. BIGGS, CARLOS M.
GARCÍA, ARTHUR J. GONZALEZ, JOSÉ R. GONZÁLEZ,
ANA J. MATOSANTOS, DAVID A. SKEEL, JR.,
CHRISTIAN SOBRINO,2 AND JOHN DOES 1-12,

_________

Defendants.

Adv. Proc. No. 17-159-LTS in
Case No. 17 BK 3283-LTS
_________
OPINION AND ORDER GRANTING THE
MOTION TO DISMISS PLAINTIFF’S
AMENDED COMPLAINT PURSUANT TO FED.
R. CIV. P. 12 (B)(1) AND (B)(6)

2

Christian Sobrino, who has succeeded Elias Sanchez as
an ex officio member of the Financial Oversight Management
Board for Puerto Rico, is substituted for Sanchez pursuant to
Federal Rule of Civil Procedure 25. The Clerk of Court is
requested to update the docket and the caption of this action
accordingly.

21a
APPEARANCES:
FERRAIUOLI LLC
By: Roberto A. Cámara-Fuertes
USDC P.R. No. 219002
221 Ponce de León Avenue
5th Floor San Juan, PR 00917
MILBANK, TWEED, HADLEY &
MCCLOY LLP
By: Dennis F. Dunne
Andrew M. Leblanc
Atara Miller
Grant R. Mainland
28 Liberty Street
New York, NY 10005
Attorneys for Ambac Assurance Corporation

O’NEILL & BORGES LLC
By: Hermann D. Bauer
Ubaldo M. Fernández
250 Muñoz Rivera Avenue, Suite 800
San Juan, PR 00918-1813
PROSKAUER ROSE LLP
By: Martin J. Bienenstock
Stephen L. Ratner
Bradley R. Bobroff
Eleven Times Square
New York, NY 10036
and

22a
Timothy W. Mungovan
One International Place
Boston, Massachusetts 02110
and
Michael A. Firestein
Lary A. Rappaport
2049 Century Park East
Suite 3200
Los Angeles, CA 90067-3206
Attorneys for The Financial Oversight and
Management Board for Puerto Rico, as
representative of The Commonwealth of Puerto Rico
and the Puerto Rico Highways & Transportation
Authority

THE LAW OFFICES OF ANDRÉS W. LÓPEZ,
P.S.C.
By: Andrés W. López
902 Fernández Juncos Avenue
San Juan, PR 00907
O’MELVENY & MYERS LLP
By: John J. Rapisardi
Suzzanne Uhland
Peter Friedman
7 Times Square
New York, NY 10036
and
Elizabeth L. McKeen
610 Newport Center Drive, 17th Floor
Newport Beach, CA 92660

23a
Attorneys for the Puerto Rico Fiscal Agency and
Financial Advisory Authority and the Hon. Geraldo
Portelo Franco

WANDA VÁZQUEZ GARCED
Secretary of Justice of Puerto Rico
By: Wandymar Burgos Vargas
Deputy Secretary in Litigation
Department of Justice
P.O. Box 9020192
San Juan, PR 00902-0192
Attorney for Hon. Ricardo Antonio Rosselló
Nevares, Hon. Raúl Maldonado Gautier, Christian
Sobrino, and Hon. José Iván
Marrero Rosado

CASILLAS, SANTIAGO & TORRES LLC
By: Juan J. Casillas Ayala, Esq.
Diana M. Batlle-Barasorda, Esq.
Ericka C. Montull-Novoa, Esq.
El Caribe Office Building
53 Palmeras Street, Ste. 1601
San Juan, Puerto Rico 00901-2419
PAUL HASTINGS LLP
By: Luc. A. Despins, Esq.
James R. Bliss, Esq.
James B. Worthington, Esq.
G. Alexander Bongartz, Esq.
200 Park Avenue
New York, New York 10166

24a
Attorneys for the Official Committee of Unsecured
Creditors

LAURA TAYLOR SWAIN,
United States District Judge
Before the Court is Defendants’ Motion to Dismiss
Plaintiff’s Amended Complaint Pursuant to Fed. R.
Civ. P. 12 (b)(1) and (b)(6) (Docket Entry3 No. 48 (the
“Motion”)). 4 The Court heard argument on the
instant Motion on November 21, 2017, and has
considered carefully all of the arguments and
submissions made in connection with the Motion.
Except as explained below, the Court has subject
matter jurisdiction of this action pursuant to 48

3

All docket entry references are to entries in case no. 17
AP 159, unless otherwise specified.
4

Additionally, the Court has received requests that it
take judicial notice of (i) five exhibits submitted by Defendants
(Docket Entry No. 51, “Defendants’ Request”), (ii) two exhibits
submitted by Non-Debtor Defendants (Docket Entry No. 50,
“Non-Debtor Defendants’ Request”), and (iii) Exhibits D-M
submitted by Plaintiff and attached to the Declaration of Ellen
M. Halstead (“Halstead Declaration”), dated September 12,
2017 (Docket Entry No. 68-1, “Plaintiff’s Request”). Evidentiary
objections have been raised by (i) Defendants to Plaintiff’s
Request (Docket Entry No. 98) and (ii) Plaintiff to Exhibits A
and B of Defendants’ Request. The Court hereby takes judicial
notice of the 1968 Resolution (Exhibit D to Defendants’ Request
and Exhibit B to the Halstead Declaration) and the 1998
Resolution (Exhibit E to Defendants’ Request and Exhibit C to
the Halstead Declaration). The Court need not address the
objections and declines to take judicial notice of the remaining
documents, as they are immaterial to the decisions set forth in
this Opinion.

25a
U.S.C. § 2166. For the following reasons, Defendants’
motion is granted. Plaintiff’s Second Claim for Relief
is dismissed pursuant to Federal Rule of Civil
Procedure 12(b)(1). The First and Fourth Claims for
Relief are dismissed pursuant to Rule 12(b)(1) to the
extent they seek to invalidate the Fiscal Plan5 on the
basis of noncompliance with certification-related
provisions of PROMESA or challenge the Oversight
Board’s certification decision, and are dismissed
pursuant to Federal Rule of Civil Procedure 12(b)(6)
in all other respects. Plaintiff’s Fifth and Sixth
Claims for Relief is granted pursuant to Rule
12(b)(6). The Seventh Claim for Relief is dismissed
pursuant to Rule 12(b)(6) to the extent that Claim for
Relief is premised on a claim of outright PRHTA
Bondholder ownership or trust beneficiary status as
to the funds in the Reserve Accounts and is
dismissed pursuant to Rule 12(b)(1) to the extent it is
premised on a lien on the Reserve Accounts. Plaintiff
has withdrawn its Third Claim for Relief, which
alleged denial of access to Article III courts. (See
Docket Entry No. 74 (the “Opposition”) at n. 4.)

I.
BACKGROUND
The following recitation of facts is drawn from
Plaintiff’s Amended Complaint (Docket Entry No. 35,
the “Amended Complaint”), except where otherwise
noted.

5

infra.

Capitalized terms used in this paragraph are defined

26a
Plaintiff is a financial guarantee insurer that has
insured certain bonds issued by the Puerto Rico
Highways and Transportation Authority (“PRHTA”).
(Am. Compl. ¶ 42.) Additionally, Plaintiff directly
owns approximately $16 million in bonds issued by
PRHTA. (Id. ¶ 44.) Plaintiff alleges that PRHTA
Revenue Bondholders, which include Plaintiff,
“purchased their bonds, and [Plaintiff] insured the
bonds, based on ironclad contractual agreements.”
(Id. ¶ 176.)
PRHTA was created in 1965 pursuant to Act No.
74-1965 (the “Enabling Act”) to, among other things,
oversee and manage the development of roads and
various
means
of
transportation
in
the
Commonwealth of Puerto Rico (the “Commonwealth”
or “Puerto Rico”). (Id. ¶ 45; see generally 9 L.P.R.A.
§ 2002.) PRHTA issued several series of bonds (the
“PRHTA Bonds”) pursuant to Resolution No. 68-18
(docket entry no. 51-4, the “1968 Resolution”) and
Resolution No. 98-06 (docket entry no. 51-5, the
“1998 Resolution” and, together with the 1968
Resolution, the “Resolutions”). Plaintiff asserts that
the PRHTA Bonds are secured by liens on (i) the
revenues derived from PRHTA’s toll facilities (the
“Pledged Toll Revenues”); (ii) gasoline, diesel, crude
oil, and other special excise taxes levied by the
Commonwealth
(the
“PRHTA
Pledged
Tax
Revenues”); and (iii) special excise taxes consisting of
motor vehicle license fees collected by the
Commonwealth (the “Vehicle Fees,” together with
the PRHTA Pledged Tax Revenues, the “PRHTA
Pledged Special Excise Taxes” and, collectively, the
“Pledged Special Revenues”). (Id. at 46.)

27a
The PRHTA Resolutions establish sinking funds
(collectively, the “Sinking Funds”). (Resolutions
§ 401.) Each Sinking Fund includes three separate
accounts (the “Accounts”): (i) a bond service account,
(ii) a redemption account, and (iii) a reserve account.
(Id.) Pursuant to the Resolutions, PRHTA is required
to deposit Pledged Special Revenues on a monthly
basis with the fiscal agent. (Am. Compl. ¶ 208;
Resolutions § 401.) Once the revenues are received,
the fiscal agent is required to deposit the funds in
the Accounts based on a protocol set forth in the
Resolutions. (Resolutions § 401.)
On April 6, 2016, the Governor of the
Commonwealth 6 signed into law the Puerto Rico
Emergency Moratorium and Financial Rehabilitation
Act (Act No. 21-2016, the “Moratorium Act”).7 (Am.
Compl. ¶ 85.) The Moratorium Act recited that it was
enacted to address the “desperate” fiscal emergency
facing the Commonwealth and to avoid the “potential
catastrophic effects of allowing creditors to exercise
their enforcement remedies,” which “would
undeniably harm the health, safety and welfare of
6

References to the “Governor” prior to January 2, 2017,
refer to the former Governor of the Commonwealth, Alejandro
García Padilla. References to the “Governor” on or after
January 2, 2017, refer to Governor Ricardo Rosselló Nevares.
7

On January 29, 2017, the Puerto Rico legislature
enacted the Puerto Rico Financial Emergency and Fiscal
Responsibility Act (Act No. 5-2017, the “Amended Moratorium
Act,” and together with the Moratorium Act, the “Moratorium
Legislation”). (Am. Compl. ¶ 6.) The Amended Moratorium Act
repealed Chapters 1 and 2 of the Moratorium Act and enacted
certain new provisions. See Amended Moratorium Act §§ 201203, 206, 208, 211, 301.

28a
the residents of the Commonwealth.” (Moratorium
Act § 102.) The Moratorium Act authorized the
Governor to declare a “state of emergency” over any
governmental entity of the Commonwealth. (Am.
Compl. ¶ 85 (citing Moratorium Act § 201(a)).) Upon
the declaration of a state of emergency, the
Moratorium Act authorized the Governor to, among
other things, “prioritize payment of ‘essential
services’ over ‘covered obligations.’” (Id. ¶ 86.) A
“[c]overed obligation” included, in relevant part, “any
interest obligation [or] principal obligation . . . of a
government entity” that became due before the
Moratorium Act expired. (Id. ¶ 88 (citing Moratorium
Act § 103(l)).) If a state of emergency was declared
with respect to a government entity, the Covered
Obligations of such government entity could be
suspended. (Id. (citing Moratorium Act §§ 103(l),
201(b)).) Section 201(b) of the Moratorium Act
granted the Governor the power to impose a stay on
creditor remedies during the covered period. (Id. ¶
89.)
Following the enactment of the Moratorium Act,
the Governor issued a series of executive orders
(collectively, the “Moratorium Orders”) that Plaintiff
asserts declared moratoriums on the PRHTA Bonds.
(Id. ¶¶ 5, 96.) Specifically, on May 17, 2016, the
Governor issued an executive order (docket entry no.
35-3, “Executive Order 18”) declaring a state of
emergency over PRHTA until June 30, 2016, stopped
the flow of certain revenues to the PRHTA Revenue
Bonds, and stayed all litigation arising from
nonpayment of the PRHTA covered obligations. (Id.
¶ 96.) On June 30, 2016, the Governor issued an
executive order (docket entry no. 35-4, “Executive

29a
Order 30”) that, among other things, extended the
PRHTA state of emergency until January 31, 2017.
(Id.) Also, on June 30, 2016, the Governor issued
another executive order (docket entry no. 35-5,
“Executive Order 31”) that, among other things,
suspended the Commonwealth’s obligation to
transfer certain revenues to PRHTA. (Id.)
In 2016, Congress passed, and the President signed
into law, the Puerto Rico Oversight, Management,
and Economic Stability Act (“PROMESA”) 8 to
address a “fiscal emergency” that had been created in
Puerto Rico as a result of “a combination of severe
economic decline, and, at times, accumulated
operating deficits, lack of financial transparency,
management inefficiencies and excessive borrowing.”
48 U.S.C.S. § 2194(m)(1) (LexisNexis 2017). As a
result of this fiscal emergency, Congress found, “the
Government of Puerto Rico [was] unable to provide
its citizens with effective services.” Id. § 2194(m)(2).
PROMESA provides, among other things, statutory
authority pursuant to which the Commonwealth and
its instrumentalities may seek to modify and
restructure their debts. See id. § 2194(n). Pursuant
to PROMESA, a Financial Oversight and
Management Board (the “Oversight Board”) was
established with the purpose of developing “a method
[for the Commonwealth] to achieve fiscal
responsibility and access to capital markets.” Id.
§ 101(a). Among other things, PROMESA establishes
(i) a process for the Oversight Board to approve fiscal
8

PROMESA is codified at 48 U.S.C. Section 2101 et seq.
All references to PROMESA provisions in the remainder of this
opinion are to the uncodified version of the legislation.

30a
plans and budgets of the Commonwealth and its
instrumentalities, including PRHTA; (ii) a process
for the Oversight Board to file bankruptcy-type
petitions on behalf of the Commonwealth and its
instrumentalities, including PRHTA; and (iii) an
alternative
mechanism
for
adjusting
the
Commonwealth’s bond debt or the bond debt of its
instrumentalities
outside
of
a
bankruptcy
proceeding. (Am. Compl. ¶¶ 98, 100-101, 152.) The
Oversight Board has thus far certified, as relevant
here, a fiscal plan for the Commonwealth (attached
as “Exhibit A” to the Amended Complaint, the
“Fiscal Plan”). (Id. ¶ 160.) Following the enactment
of PROMESA, Puerto Rico’s Amended Moratorium
Act imposed measures “functionally” identical to the
provisions of the Moratorium Act and continued the
Moratorium Orders in full force and effect. (Id.
¶¶ 104-105.)
On
February
28,
2017,
the
Governor’s
administration and the Puerto Rico Fiscal Agency
and Financial Advisory Authority (“AAFAF”)
submitted an initial fiscal plan (the “February 28
Fiscal Plan”) to the Oversight Board. (Id. ¶ 156.) On
March 9, 2017, the Oversight Board rejected the
February 28 Fiscal Plan on the ground that it
understated the Commonwealth’s expenditures. (Id.
¶ 157.) On March 11, 2017, the Governor’s
administration and AAFAF submitted a revised
fiscal plan. (Id. ¶ 158.) The Oversight Board certified
the revised Fiscal Plan on March 13, 2017. (Id.
¶ 160.) On or about April 28, 2017, the Puerto Rico
Legislative Assembly enacted the “Fiscal Plan
Compliance Act” (attached as “Exhibit B” to the
Amended Complaint). (Id. ¶ 10.) The Fiscal Plan

31a
Compliance Act “adjust[s] the existing legal and
juridical framework [of Puerto Rico] to ensure full
compliance with the Fiscal Plan . . . .” (Fiscal Plan
Compliance Act at 1.) The Oversight Board
commenced Title III proceedings with respect to the
Commonwealth on May 3, 2017, and with respect to
PRHTA on May 21, 2017. (Am. Compl. ¶ 101.)
On June 20 2017, AAFAF, on behalf of PRHTA,
delivered an instruction to the Bank of New York
Mellon (“BNYM”), as Fiscal Agent, instructing
BNYM to “refrain from making the scheduled July 1,
2017 payment to the Bondholders from the [Reserve]
Account” and asserting that any such payment would
constitute “an act to exercise control” over PRHTA’s
property in violation of the automatic stay that arose
under 11 U.S.C. § 362(a), as incorporated by Section
301 of PROMESA, upon the filing of PRHTA’s Title
III petition. 9 Following the delivery of the
instruction, on July 3, 2017, PRHTA defaulted on a
scheduled bond payment in the amount of $219
million. (Id. ¶ 211.) As a result, Plaintiff paid claims
under the governing insurance policy totaling
approximately $52 million to the holders of PRHTA
Bonds (the “PRHTA Bondholders”). (Id.)

II.
DISCUSSION
Defendants move pursuant to Federal Rules of
Civil Procedure 12(b)(1) and 12(b)(6) to dismiss
Plaintiff’s Amended Complaint for lack of subject
9

See Docket Entry 35-7.

32a
matter jurisdiction and for failure to state a claim
upon which relief may be granted. A court presented
with motions to dismiss under both Rules 12(b)(1)
and 12(b)(6) should ordinarily decide jurisdictional
questions before addressing the merits. Deniz v.
Municipality of Guaynabo, 285 F.3d 142, 149 (1st
Cir. 2002). The party invoking the jurisdiction of a
federal court carries the burden of proving its
existence. Johansen v. United States, 506 F.3d 65, 68
(1st Cir. 2007). The Court also has an independent
duty to assess whether it has subject matter
jurisdiction of an action. See Fed. R. Civ. P. 12(h)(3);
FW/PBS, Inc. v. City of Dallas, 493 U.S. 215, 231
(1990).
A. Rule 12(b)(1): Subject Matter Jurisdiction
1. Redressable Injury
Defendants move to dismiss the Amended
Complaint pursuant to Rule 12(b)(1) for lack of
subject matter jurisdiction. Specifically, Defendants
assert that Plaintiff lacks standing to bring this
action because Plaintiff has not suffered a concrete
injury, as its rights, and any impairment of those
rights, will not be determined until a plan of
adjustment is proposed. (See Opening Br. at 17-18.)
In support of that assertion, Defendants contend that
(i) the Fiscal Plan and the Fiscal Plan Compliance
Law do not discharge debt or eliminate liens, (ii) the
Fiscal Plan serves merely as a “blueprint” or
“business plan,” and (iii) Plaintiff has not and cannot
plead any distinct injury due to the Moratorium
Legislation and Moratorium Orders because Plaintiff
admits that it was being paid from reserve accounts
at the time it commenced this action. (See id.; see

33a
also Reply Br. at 6-9.) Plaintiff asserts that it has
standing and has suffered a concrete, particularized
injury because the Fiscal Plan and the Fiscal Plan
Compliance Act mandate that funds that were
previously earmarked for payment of PRHTA bonds
or that would otherwise service PRHTA’s debts have
been used for other, legally subordinate, purposes or
diverted to the Commonwealth’s General Funds and
that, on July 3, 2017, PRHTA defaulted on a $219
million bond payment, causing Plaintiff to pay $52
million in claims on certain financial guaranty
insurance policies, as a result of the clawbacks
effected through the Moratorium Orders and
Moratorium Legislation.10 (See Pl.’s Br. at 17-18.) For
the following reasons, the Court concludes that
Plaintiff has sufficiently pled a redressable injury.
In resolving a Rule 12(b)(1) motion to dismiss an
action for lack of standing, the Court must “credit
the plaintiff’s well-pled factual allegations and draw
all reasonable inferences in the plaintiff’s favor.”
Sanchez ex rel. D.R.-S. v. United States, 671 F.3d 86,
92 (1st Cir. 2012). To demonstrate constitutional
standing, a plaintiff must have (1) suffered an injury
in fact, (2) that is fairly traceable to the challenged
conduct of the defendant, and (3) that is likely to be
redressed by a favorable judicial decision. Spokeo,
Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016). Plaintiff,
as “[t]he party invoking federal jurisdiction[,] bears

10

Plaintiff asserts that, even if PRHTA had not defaulted,
the depletion of Reserve Account funds caused by the
Moratorium Orders and Moratorium Legislation would alone
constitute a redressable injury. (Id.)

34a
the burden of establishing these elements.” Lujan v.
Defs. of Wildlife, 504 U.S. 555, 561 (1992).
Here, Plaintiff alleges that (i) funds that were
originally available to service PRHTA’s debt have
been diverted as a result of the Fiscal Plan and
Fiscal Plan Compliance Act, (ii) subordinate or junior
obligations will effectively be afforded priority over
PRHTA debt, (iii) Plaintiff insures certain PRHTA
debt, (iv) a default has already occurred, and (v)
Plaintiff has paid out claims due to such default. (See
Am. Compl. ¶¶ 40, 168-70, 211.) Crediting these
factual allegations, and drawing “all reasonable
inferences in [Plaintiff’s] favor,” the Court finds that,
for the purposes of a constitutional standing
analysis, Plaintiff has sufficiently pled that it has
suffered an injury-in-fact, and that the harm is fairly
traceable to the Fiscal Plan, Fiscal Plan Compliance
Act,
Moratorium
Orders,
and
Moratorium
Legislation, and the consequences of the respective
actions, and that injury is likely to be redressed by a
favorable judicial decision in this action. See
Sanchez, 671 F.3d at 92; Spokeo, 136 S. Ct. at 1547.
Defendants’ motion to dismiss the Amended
Complaint pursuant to Federal Rule of Civil
Procedure 12(b)(1) is therefore denied insofar as it is
premised on lack of standing.

2. Case or Controversy Requirement
In its Seventh Claim for Relief, Plaintiff alleges
that all of the funds held in the Reserve Accounts
“are property of the [PR]HTA Revenue Bondholders,
held in trust for their benefit, and subject to a lien in

35a
their favor,” and seeks declarations that all funds in
the Reserve Accounts are property of the PRHTA
Bondholders and that PRHTA “lacks an interest
sufficient to prevent funds held in the Reserve
Accounts from flowing to the [PR]HTA Revenue
Bondholders, unless and until all outstanding
[PR]HTA Revenue Bonds have been fully retired or
defeased.” (Am. Compl ¶¶ 255, 260.) This Claim for
Relief appears to be premised on three different
theories of bondholder interests in the Reserve
Account—that the bondholders are the direct owners
of the funds therein, that the funds are held in trust
under terms that exclude cognizable property
interests of PRHTA in those funds, and that the
funds are property of PRHTA but subject to a lien in
favor of the PRHTA Bondholders.
Article III, Section 2 of the Constitution of the
United States limits the exercise of federal judicial
power to actual cases and controversies. U.S. Const.
art. III, § 2; Aetna Life Ins. Co. of Hartford, Conn. v.
Haworth, 300 U.S. 227, 239-41 (1937). The authority
conferred on federal courts by the Declaratory
Judgment Act, 28 U.S.C. § 2201, is likewise limited
to controversies that are within the constitutionallyconstrained scope of federal jurisdiction. Aetna, 300
U.S. at 240. A justiciable controversy must be “a real
and substantial controversy admitting of specific
relief through a decree of a conclusive character, as
distinguished from an opinion what the law would be
upon a hypothetical state of facts.” Aetna, 300 U.S.
at 241. Federal courts are not empowered to issue
advisory opinions where there is no actual
controversy of this nature. See id.; Golden v.

36a
Zwickler, 394 U.S. 103, 108 (1969); Shell Oil Co. v.
Noel, 608 F.2d 208, 213 (1st Cir. 1979).
The constitutional requirement that controversies
be justiciable and admit of specific relief through a
decree of a conclusive character requires more than
strong or even significant disagreement, however
high the stakes, to obtain declaratory relief. The
issue must be raised, and the relief sought, in a
fashion that would address a specific live controversy
of sufficient immediacy and reality to warrant the
issuance of a declaratory judgment. See Golden, 394
U.S. at 108, 110. Rulings on isolated or abstract
principles that will merely be useful in formulating
or litigating future choices that might or might not
be made are outside the authorized scope of
declaratory relief.
Plaintiff’s Seventh Claim for Relief presents
justiciable issues that are capable of conclusively
resolving its issue regarding PRHTA’s right to
prohibit disbursement of the Reserve Account to the
extent Plaintiff asserts that PRHTA has insufficient
property interests to prevent the payments, although
PROMESA Section 305’s limitations on the Court’s
powers to grant relief may ultimately impede
Ambac’s ability to state a claim upon which relief
may be granted. To the extent, however, its claim of
rights in the account is limited to a lien on property
of PRHTA, Ambac has neither alleged facts nor
proffered a legal theory that would entitle it to a
determination that the parties’ respective property
interests are such as to preclude PRHTA from
preventing disbursement of the funds. A
determination of the nature or extent of any PRHTA
lien interest would therefore be merely advisory,

37a
requiring further facts and litigation to ascertain its
impact, if any, on rights to control disbursements
from the Reserve Account. The Court concludes that
it lacks subject matter jurisdiction of the Seventh
Claim for Relief to the extent that claim is premised
solely on Plaintiff’s assertion of a lien interest in the
Reserve Account funds. A determination of the lien
interest, standing alone, will not resolve conclusively
the question of whether, when and from what, if any,
funds the PRHTA bondholders are entitled to be
paid. Such lien-related issues may ripen in other
respects in the future in connection, for instance,
with claims and objections to claims, and litigation
concerning confirmation of a plan of adjustment.

3. Ripeness Requirement (Second Claim for
Relief)
In the Second Claim for Relief, Plaintiff asserts
that the Fiscal Plan, Fiscal Plan Compliance Act,
Moratorium Legislation and Moratorium Orders
(each a “Challenged Action,” and collectively, the
“Challenged Actions”) violate the Takings and Due
Process Clauses of the Constitution of the United
States by depriving Plaintiff and the PRHTA
Revenue Bondholders of their senior secured
property interests in the PRHTA Pledged Special
Revenues without providing Plaintiff and the
PRHTA Bondholders with due process or just
compensation. Specifically, Plaintiff alleges that the
“[PRHTA] Pledged Special Revenues may legally be
clawed back only to pay [General Obligation (“GO”)]
Debt and only when no other resources are
available.” (See Am. Compl. ¶¶ 125, 184-86

38a
(emphasis omitted).) Accordingly, Plaintiff seeks “an
order declaring (i) that the [Challenged Actions] are
unconstitutional on the grounds that each violates
the Fifth and Fourteenth Amendments of the U.S.
Constitution; and (ii) that the [Challenged Actions]
are unlawful, invalid, null, and void,” as well as
“injunctive relief invalidating the Oversight Board’s
certification of the Fiscal Plan and prohibiting the
Defendants from taking or causing to be taken any
action pursuant to” the Challenged Actions. (Id.
¶¶ 223, 226.) Defendants assert that the Court lacks
subject matter jurisdiction of the Takings Clause
claim for relief because it is not ripe for adjudication.
(See Opening Br. at 7, 17-18.) Defendants also argue
that, as “Plaintiff has not independently pled a due
process claim except in terms identical to its
[T]akings allegations,” Plaintiff’s Due Process Clause
Claim must also fail. (Id. at 40-41.)
The Takings Clause provides that “private property
[shall not] be taken for public use, without just
compensation.” U.S. Const. amend. V. The Takings
Clause
applies
to
the
States,
and
the
Commonwealth, by virtue of Section 1 of the
Fourteenth Amendment to the U.S. Constitution.
U.S. Const. amend. XIV, § 1. The Constitution also
forbids government deprivation of property without
due process of law. See U.S. Const. amend. V; see
also U.S. Const. amend. XIV, § 1.
Ripeness “has roots in both the Article III case or
controversy
requirement
and
in
prudential
considerations.” Reddy v. Foster, 845 F.3d 493, 500
(1st Cir. 2017) (internal quotation marks and citation
omitted). The doctrine “seeks to prevent the
adjudication of claims relating to contingent future

39a
events that may not occur as anticipated, or indeed
may not occur at all.” Id. In the First Circuit, “a
plaintiff asserting a takings claim must demonstrate
[both] that (1) he or she received a final decision from
the state on the use of his [or her] property, and (2)
sought compensation through the procedures the
State has provided for doing so.” Garcia-Rubiera v.
Calderon, 570 F.3d 443, 451 (1st Cir. 2009) (internal
quotation marks and citation omitted). “[A]
[p]laintiff[] ha[s] the burden of demonstrating
ripeness.” Id. (internal quotation marks and citation
omitted).
Plaintiff has failed to carry its burden here.
Specifically, Plaintiff has failed to demonstrate that
it has “received a final decision from the state”
regarding any alleged “taking” of its property. See id.
The “finality prong” addresses “whether the initial
decisionmaker has arrived at a definitive position on
the issue that inflicts an actual, concrete injury.” Id.
at 452 (quotation marks and citation omitted)
(emphasis in original). First Circuit precedent calls
for a “‘focus[] on whether the administrative body
responsible for applying the challenged regulations
has completed discretionary review of the plaintiff’s
particular situation[,]’” and whether there is a
“‘pending administrative process that could . . .
modify the statute’s impact on the’” plaintiff. Id.
(quoting Asociación De Subscripción Conjunta Del
Seguro De Responsibilidad Obligatorio v. Flores
Galarza, 484 F.3d 1, 15 (1st Cir. 2007)).
Plaintiff does not, and could not, allege that the
Commonwealth, through any of the Challenged
Actions, “has arrived at a definitive position”
regarding any disbursement of funds that may

40a
“inflict[] an actual, concrete injury” upon them that
is sufficient to support a ripe Takings Clause claim.
See id. Here, the clawback retention is not a final
resolution of the disposition of the contested
revenues or of Ambac’s and the PRHTA Bondholders’
asserted lien rights. PROMESA Title III
contemplates that the Oversight Board will
propound
plans
of
adjustment
for
the
Commonwealth and PRHTA. Those plans will
address the ultimate disposition of the contested
revenues and the payments, if any, to be received by
the bondholders and other creditors. Any challenges
to those plans will be considered and determined in
connection with efforts to confirm those plans. The
particulars of any plans of adjustment, and the
specific issues that will be addressed throughout the
process by which any such plans will be developed
and confirmed, are not yet determined. The effect of
the Challenged Actions on Plaintiff thus could be
modified and there has been no definitive position.
Garcia-Rubiera does not require the Court to reach
a different result. There, plaintiffs challenged the
constitutionality of a law that required Puerto Rican
motor vehicle owners to pay annual premiums for
compulsory car insurance at the time of acquisition
or renewal of vehicle registration, and the premiums,
which were initially collected by the Secretary of the
Treasury,
were
then
transferred
to
a
Commonwealth-created association of all private
insurers in Puerto Rico (the “JUA”), who ultimately
provided the car insurance. See id., 570 F.3d at 447.
The Commonwealth enacted legislation under which
the JUA was required to transfer certain of the
premiums back to the Commonwealth, and the

41a
Commonwealth was entitled to use interest earned
on the monies as it accrued. Id. at 448-49. The
Commonwealth provided a procedure under which
motor vehicle owners could seek reimbursement of
duplicative premiums from the Commonwealth. Id.
at 449. Further legislation permitted the
Commonwealth to use more of the transferred funds.
Id. at 450. The insurance premium and interest
diversion at issue in Garcia-Rubiera was
accomplished under a finalized statutory structure
and a settlement of which no further modification
was contemplated. See id. at 447-50. Here, by
contrast, the Commonwealth and PRHTA are in the
early stages of a process that will culminate in
efforts to confirm as-yet-to-be-formulated plans of
adjustment. Because Plaintiff’s Takings Clause claim
does not satisfy the first prong of the ripeness
analysis, there is no need for the Court to consider
whether Ambac has met the “just compensation”
prong of its burden of demonstrating that its claim is
ripe for adjudication. For the foregoing reasons,
Plaintiff’s Takings Clause claim is not yet ripe and
does not meet the Article III case or controversy
requirement; thus, it is not justiciable. See GarciaRubiera, 570 F.3d at 452.
Plaintiff also alleges violations of the Due Process
Clause and, in support of those claims, alleges facts
identical to those alleged in support of its Takings
Clause claim, and asserts that its Due Process claim
sounds in procedural due process, arguing that
Plaintiff was not provided a pre-deprivation
opportunity to be heard prior to the implementation
of the revenue diversion actions at issue here. (See
Am. Compl. ¶¶ 220-27; Pl.’s Br. at 47-48.) It appears

42a
that Plaintiff’s procedural due process claim is an
attempt to evade the predicates for a Takings Clause
claim, which, as discussed above, require a “final
decision” and the denial of “just compensation.”
Downing/Salt Pond Partners, L.P. v. Rhode Island &
Providence Plantations, 643 F.3d 16, 27–28 (1st Cir.
2011). The Court declines to address this claim
separately. For substantially the reasons discussed
above, the Due Process claim is not ripe.
The Court thus lacks subject matter jurisdiction of
Plaintiff’s Second Claim for Relief, and this Claim is
dismissed pursuant to Federal Rule of Civil
Procedure 12(b)(1).
4. Limitations
on
Jurisdiction
Under
PROMESA Sections 106(e) and 305
Defendants argue that the Court lacks subject
matter jurisdiction of Plaintiff’s Fourth, Fifth and
Sixth Claims for Relief because Section 106(e) of
PROMESA deprives the Court of jurisdiction to
entertain challenges to Oversight Board certification
of Fiscal Plans, and Section 305 of PROMESA denies
the Court jurisdiction of litigation seeking to
interfere with the Debtors’ governmental functions,
property and revenues. (Mot. at 18 -25.)
a. PROMESA Section 106(e)
Section 106(e) of PROMESA provides that:
There shall be no jurisdiction in any United
States district court to review challenges to
the
Oversight
Board’s
certification
determinations under this Act.

43a
48 U.S.C.S. § 2126(e) (LexisNexis 2017). Defendants
assert that the Court lacks subject matter
jurisdiction of Plaintiff’s First, Second, Fourth, Fifth
and Sixth Claims for Relief insofar as they explicitly
or implicitly seek invalidation of the certification of
the Fiscal Plan, arguing that Section 106(e) of
PROMESA divests the Court of jurisdiction “because
those claims challenge the [Oversight Board’s]
decision to certify the Fiscal Plan.” (Mot. at 18; see
also FOMB Reply at 3.) Plaintiff argues that Section
106(e) should be narrowly construed to apply only to
claims against the Oversight Board that constitute
direct challenges of the Oversight Board’s
certification decisions and contends that, “[a]t most,
[the] limitation on subject matter jurisdiction applies
only to a narrow slice of the claims—that portion of
the Fourth Claim for Relief that seeks invalidation of
the Oversight Board’s certification of the Fiscal
Plan.” (Opp’n at 19-20.)
Section 201(b) of PROMESA identifies fourteen
specific objectives and requirements that a fiscal
plan, whose development is overseen by the
Oversight Board, must satisfy. The Oversight Board,
pursuant to Section 201(c)(3) of PROMESA, is
specifically tasked with reviewing and approving
proposed fiscal plans and is granted “sole discretion”
to determine in connection with such certification
whether such fiscal plans satisfy the Section 201(b)
requirements. PROMESA not only grants the
Oversight Board exclusive authority to certify fiscal
plans, but it also insulates the Oversight Board’s
certification determinations, which necessarily rest
on determinations that the Section 201(b)
requirements have been met, from challenge by

44a
denying all federal district courts jurisdiction to
review such challenges. See PROMESA § 106(e). To
be meaningful, denial of jurisdiction to review the
certification of the Fiscal Plan thus must be
understood preclude the review of claims that
particular aspects of the Fiscal Plan are
noncompliant with Section 201(b) requirements.
The First, Second, and Fourth Claims for Relief of
the Amended Complaint expressly seek invalidation
of the Oversight Board’s certification of the Fiscal
Plan and injunctive relief prohibiting Defendants
from taking or causing to be taken any action
pursuant to the Fiscal Plan. (Am. Compl. ¶¶ 215,
218, 223, 226, 236, 239.) To the extent these claims
rest on contentions that the Fiscal Plan violates
Section 201(b) specifications, such as the
requirement that a fiscal plan respect lawful
priorities or lawful liens under territorial law, this
requested relief necessarily implicates review of the
Fiscal Plan’s certification and therefore the Court
lacks subject matter jurisdiction to consider the
merits of the claims.
Congress has entrusted the ultimate decision to
certify a fiscal plan to the sole discretion of the
Oversight Board. See PROMESA § 201(c)(3).
PROMESA creates a statutory structure that is
protective of the Oversight Board’s authority under
Section 312(a) of PROMESA, which grants the
Oversight Board the exclusive right to propose a
Title III plan of adjustment that must be consistent
with the applicable certified Fiscal Plan to be eligible
for confirmation. Together, these provisions
underscore the central, discretionary role that
Congress has assigned to the Oversight Board in the

45a
Title III debt adjustment process. See PROMESA
§ 314(b)(7). Under PROMESA’s statutory framework,
it is only at the plan confirmation stage that the
Court determines whether a proposed plan of
adjustment complies with, among other things, the
provisions of Title 11 of the United States Code
which have been made applicable to these cases by
Section 301 of PROMESA and the relevant
provisions of PROMESA. See PROMESA § 314.
Therefore, the Court lacks subject matter
jurisdiction to entertain the First, Second and Fourth
Claims for Relief to the extent they, implicitly or
explicitly, seek invalidation of the certification of the
Fiscal Plan and prohibition of actions that could not
be taken under PROMESA absent such certification,
for non-compliance with PROMESA requirements
that constitute predicates to certification, and those
claims for relief are dismissed pursuant to Rule
12(b)(1) to that extent. Section 106(e) does not,
however, deprive the Court of jurisdiction to
entertain Plaintiff’s claims that the Fiscal Plan is
invalid or unenforceable as violative of the Contracts,
Takings and Due Process Clauses of the federal
Constitution. The Fifth and Sixth Claims for Relief
are not implicated by Section 106(e) because they do
not challenge the Oversight Board’s certification of
the Fiscal Plan or claim that PROMESA Fiscal Plan
certification predicates have not been met. The Fifth
and Sixth Claims for Relief are discussed infra in
Sections B.3. and B.4. of this Opinion.

46a
b. PROMESA Section 305
Section 305 of PROMESA provides that:
Subject to the limitations set forth in titles I
and II of this Act, notwithstanding any power
of the court, unless the Oversight Board
consents or the plan so provides, the court may
not, by any stay, order, or decree, in the case
or otherwise, interfere with—
(1) any of the political or governmental
powers of the debtor;
(2) any of the property or revenues of the
debtor; or
(3) the use or enjoyment by the debtor of
any income producing property.
48 U.S.C.S. § 2165 (LexisNexis 2017). As explained
in this Court’s January 30, 2018, decision dismissing
the Amended Complaint in Assured Guaranty Corp.
et al. v. Commonwealth of Puerto Rico et al. (see
docket entry no. 125 in case no. 17-AP-155 and
docket entry no. 121 in case no. 17-AP-156,
“Assured”), Section 305 is not a jurisdictional
provision but, rather, circumscribes a PROMESA
Title III court’s power to grant certain types of relief
and so can preclude a litigant’s ability to state a
claim for the proscribed relief. Assured at 9-12.
The Court now turns to the merits issues presented
by Plaintiff’s remaining claims and the instant
motion practice—whether Plaintiff has stated claims
upon which relief may be granted.

47a
B. Rule 12(b)(6): Failure to State a Claim
To survive a motion to dismiss for failure to state a
claim upon which relief can be granted under Rule
12(b)(6), a complaint must plead “enough facts to
state a claim to relief that is plausible on its face.”
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007). The Court accepts as true the non-conclusory
factual allegations in the complaint and makes all
reasonable inferences in the plaintiff’s favor. Miss.
Pub. Employees’ Ret. Sys. v. Boston Scientific Corp.,
523 F.3d 75, 85 (1st Cir. 2008). The court may
“consider documents the authenticity of which are
not disputed by the parties, documents central to the
plaintiffs’ claim, and documents sufficiently referred
to in the complaint.” Id. (citing Curran v. Cousins,
509 F.3d 36, 44 (1st Cir. 2007)). The complaint must
allege enough factual content to nudge a claim
“across the line from conceivable to plausible.”
Ashcroft v. Iqbal, 556 U.S. 662, 680 (2009) (citing
Twombly, 550 U.S. at 570).
1. First Claim for Relief: Contracts Clause
In its First Claim for Relief, Plaintiff asserts that
Defendants have violated the Contracts Clause of
Article I of the federal Constitution and, accordingly,
seeks an order declaring that the Challenged Actions
(i) are “unconstitutional on the grounds that . . . each
violates the Contracts Clause;” (ii) “unlawfully
interfere with and impede Ambac’s contractual
rights,” and (iii) “are unlawful, invalid, null, and
void,” as well as injunctive relief “invalidating the
Oversight Board’s certification of the Fiscal Plan and
prohibiting Defendants from taking or causing to be

48a
taken any action pursuant to the [Challenged
Actions].” (Am. Compl. ¶¶ 212-19.)
Defendants move to dismiss the claim on the
merits in its entirety. They assert that “the Fiscal
Plan and [Fiscal Plan Compliance Act] do not
effectuate any impairment, discharge, or taking, and
[thus] no constitutional claims exist,” and further
argue that, “[e]ven if they did, Ambac fails to state a
claim as to the Fiscal Plan” and the Moratorium
Orders “because the Contract[s] Clause applies only
to state (or Commonwealth) legislation; it does not
apply to non-legislative acts such as the Executive
Orders or the [Oversight Board]’s certification of the
Fiscal Plan or its commencement of the Title III
case.” (Mot. at 25.)
The Constitution provides that “[n]o State shall . . .
pass any . . . Law impairing the Obligation of
Contracts.” U.S. Const. art. I, § 10, cl. 1 (the
“Contracts Clause”). The Contracts Clause, by its
terms, applies only to measures that are state laws.
See, e.g., Arriaga v. Members of Bd. of Regents, 825
F. Supp. 1, 4 (D. Mass. 1992) (stating that, as “some
exercise of legislative power is essential to implicate
the Contracts Clause . . . , actions solely by executive
officers affecting contractual rights would not, unless
constituting the exercise of a delegated legislative
function, involve a potential violation of the
Contracts Clause” (citations omitted)) and cases cited
therein. Defendants contend that the Fiscal Plan and
the Moratorium Orders are executive actions not
constituting any exercise of delegated legislative
functions, and that Plaintiff thus cannot state a
Contracts Clause claim with respect to those
measures. Plaintiff’s allegations with respect to the

49a
Fiscal Plan in this regard fail to identify any
delegation or exercise of state legislative authority
the Amended Complaint alleges that the Oversight
Board exercised powers “delegated to it by Section
201 of PROMESA,” which is federal legislation and
thus cannot have constituted a delegation by the
Commonwealth’s
legislature,
and
that
Commonwealth
executive
branch
officials
“submitted” the Fiscal Plan to the Oversight Board
in some manner that constituted a delegated exercise
of legislative power. (See Am. Compl. ¶ 177.) Aside
from the conclusory assertion that the executive
branch actions were an exercise of powers delegated
by certain Commonwealth legislation, the Amended
Complaint proffers no facts from which it could
reasonably be inferred that submission of the Fiscal
Plan to the Oversight Board constituted a
lawmaking function. The Amended Complaint thus
fails to allege plausibly that the Fiscal Plan is a state
law within the meaning of the Contracts Clause.
Plaintiff does, however, allege plausibly that the
Moratorium Orders constitute exercises of delegated
state legislative power and are therefore laws. The
Amended Complaint includes allegations, consistent
with the text of the Moratorium Law, that the
legislation purported to “confer the Legislative
Assembly’s police power on the Governor, and when
issuing the Moratorium Orders, the Governor
purported to be exercising that police power.” (Am.
Compl. ¶ 113.) The Court will therefore turn to an
analysis of whether the Amended Complaint states a
cause of action for which relief may be granted
pursuant to the Contracts Clause as to the

50a
Moratorium Orders, the Moratorium Laws, and the
Fiscal Plan Compliance Act.
Though the language of the Contracts Clause is
“unequivocal,” it “does not make unlawful every state
law that conflicts with any contract,” and in
considering claims brought under the Contracts
Clause, courts must “reconcile the strictures of the
Contract[s] Clause with the essential attributes of
sovereign power necessarily reserved by the States to
safeguard the welfare of their citizens.” United Auto.,
Aero., Agric. Impl. Workers of Am. Int’l Union v.
Fortuño, 633 F.3d 37, 41 (1st Cir. 2011) (internal
quotation marks and citations omitted). In doing so,
courts apply a two-pronged test: they examine first
“whether the state law has operated as a substantial
impairment of a contractual relationship,” and then,
if the law has, “whether the impairment was
reasonable and necessary to serve an important
government purpose.” Id. When a plaintiff brings
suit against a state or the Commonwealth for
impairing a contract to which it is a party, the
plaintiff bears the burden of pleading and proof as to
both prongs of the Contracts Clause analysis. Id. at
43.
There are “three distinct parts” of a “substantial
impairment” analysis: “whether there is a
contractual relationship, whether a change in law
impairs that contractual relationship, and whether
the impairment is substantial.” Mercado-Boneta v.
Administracion del Fondo de Compensacion al
Paciete Through Ins. Com’r of Puerto Rico, 125 F.3d
9, 13 (1st Cir. 1997) (quotation marks and citation
omitted). “The first two parts of this inquiry are . . .
often easily satisfied” and, to determine just how

51a
“substantial” an impairment is, “courts look long and
hard at the reasonable expectations of the parties.”
Houlton Citizens’ Coal. v. Town of Houlton, 175 F.3d
178, 190 (1st Cir. 1999).
Once there is a determination that a state law has
operated as a “substantial impairment,” a court must
analyze the reasonableness and necessity of the
challenged state action. The First Circuit considers
“the reasonableness inquiry” to “ask[] whether the
law is reasonable in light of the surrounding
circumstances,” while “the necessity inquiry focuses
on whether Puerto Rico imposed a drastic
impairment when an evident and more moderate
course would serve its purposes equally well.”
Fortuño, 633 F.3d at 45-46 (internal quotation
marks, citations, and brackets omitted). In analyzing
these questions, courts may consider “whether the
act (1) was an emergency measure; (2) was one to
protect a basic societal interest, rather than
particular individuals; (3) was tailored appropriately
to its purpose; (4) imposed reasonable conditions;
and (5) was limited to the duration of the
emergency.” Id. at 46.
In Fortuño, a collection of labor organizations and
public employees sued Governor Luis A. Fortuño, as
well as a number of other government officials,
claiming that an emergency law, styled Act No. 7 and
“intended to eliminate Puerto Rico’s $3.2 billion
structural deficit,” unlawfully impaired collective
bargaining agreements and other employmentrelated contractual obligations by “la[ying] out a
three-phase plan to reduce the government payroll.”
See 633 F.3d at 39-40. Among other claims, the
Fortuño plaintiffs asserted that Act No. 7 violated

52a
the Contracts Clause. See id. Assuming “arguendo
that the plaintiffs pled sufficient facts to satisfy the
substantial impairment inquiry,” the First Circuit
held that the plaintiffs failed to plead “sufficient
facts to allow a court to draw a reasonable inference
that Act No. 7 was unreasonable or unnecessary to
effectuate an important governmental purpose.” See
id. at 41-42, 45 (emphasis in original). In so holding,
the Fortuño Court relied in part on the plaintiffs’
failure to plead “any factual content” or allegations
“to undermine the credibility of Act No. 7’s statement
that it was enacted to remedy a $3.2 billion deficit
[or] to question the existence of the deficit or the
‘basic societal interest’ in eliminating it,” as well as
their failure to allege “facts demonstrating that Act
No. 7 was an excessively drastic means of tackling
the deficit.” See id. at 46-47.
For purposes of the following analysis the Court
assumes arguendo, as did the First Circuit in
Fortuño, that Plaintiff has pled the requisite
substantial impairment. The Court therefore turns
to the reasonableness and necessity inquiries. See
Fortuño, 633 F.3d at 41. To state a Contracts Clause
claim, Plaintiff must have pled facts sufficient to
support an inference that the Moratorium
Legislation, Moratorium Orders, and Fiscal Plan
Compliance Act are unreasonable or unnecessary to
effectuate an important governmental purpose. See
id. Accordingly, the Court examines Plaintiff’s
allegations in light of the factors set forth in Fortuño,
beginning with the question of whether Plaintiff has
pled facts sufficient to support an inference that the
Fiscal Plan Compliance Act, Moratorium Legislation,
and Moratorium Orders were not “emergency

53a
measures” enacted to “protect a basic societal
interest, rather than particular individuals.” See
Fortuño, 633 F.3d at 46. Plaintiff acknowledges in
the Amended Complaint that “[o]fficers and
representatives of the Commonwealth, as well as the
Legislative Assembly, have [] repeatedly stated that
the Commonwealth is in a state of fiscal emergency.”
The Moratorium Act recites that it was enacted to
address the “unsustainable” fiscal emergency that is
facing the Commonwealth and that “threatens its
ability to honor its outstanding obligations while
protecting the health, safety and welfare of the
inhabitants of Puerto Rico.” (Moratorium Act § 102.)
PROMESA itself recites that it was enacted by
Congress to address the real state of “fiscal
emergency”
that
is
currently
facing
the
Commonwealth and, as Plaintiff acknowledges in the
Amended Complaint, PROMESA was “intended ‘to
provide a method for a covered territory [including
the Commonwealth] to achieve fiscal responsibility
and access to the capital markets.’” (Id. ¶ 97 (quoting
48 U.S.C.A. §§ 2121(a), (b)(1)).) As Congress
acknowledged, the Commonwealth’s exceptional
fiscal situation resulted in the passage of PROMESA,
an unprecedented action which seeks to “protect a
basic societal interest.”
In the Amended Complaint, Plaintiff alleges that
the Commonwealth’s officers and representatives are
only acting “under cover of an emergency” to
“engag[e] in a pattern of obstructive and destructive
behavior” (Am. Compl. ¶¶ 73-74) but, like the
plaintiffs in Fortuño, proffers no facts that
undermine the Commonwealth officers’ and
representatives’ representations of the existence of a

54a
fiscal emergency. Indeed, in its opposition to the
Motion, Ambac acknowledges that it “does not
gainsay the severity of the Commonwealth’s fiscal
crisis.” (Opp. at 32.) No facts set forth in the
Amended Complaint plausibly support an inference
that the declarations of emergency conditions are
mere subterfuges for nefarious conduct. Thus,
Plaintiff has failed to plead facts sufficient to “nudge”
its claim that the Commonwealth’s officers and
representatives acted “under cover of an emergency”
to “engag[e] in a pattern of obstructive and
destructive behavior” from “conceivable to plausible.”
See Iqbal, 556 U.S. at 680. Nor does Plaintiff plead
facts sufficient to support an inference that the
Moratorium Legislation, Moratorium Orders, and
Fiscal Plan Compliance Act were enacted to protect
“particular individuals” rather than “a basic societal
interest.” See Fortuño, 633 F.3d at 41-42, 45.
Plaintiff asserts in the Amended Complaint that
the actions at issue in the First Claim for Relief
“constitute neither a reasonable nor necessary means
of serving an important public purpose, because
many less drastic alternatives existed.” (See Am.
Compl. ¶¶ 122, 183). The plaintiffs in Fortuño
similarly pled that “there were other available
alternatives with lesser impact to the paramount
constitutional rights affected,” but the court there
found that plaintiffs’ failure to “specify any such
alternatives or plead any factual content suggesting
such alternatives might exist” rendered the pleading
conclusory and thus insufficient to meet the
plaintiffs’ pleading burden. See 633 F.3d at 47.
Plaintiff here similarly fails to plead any factual
content suggesting that “other available alternatives

55a
with lesser impact to the paramount constitutional
rights affected” might have existed that would
ultimately have been “a more moderate course of
action” that would serve the stated purposes of the
relevant actions “equally well.” See id. Plaintiff
alleges that, as “the projected resources available to
the Commonwealth . . . vastly exceed[] debt service
on GO Debt and the Revenue Bonds,” the clawback
of PRHTA Pledged Special Revenues, pursuant to
the Moratorium Legislation and Moratorium Orders,
was demonstrably neither necessary nor reasonable
because the Commonwealth’s “refus[al] to apply the
clawed back [PR]HTA Pledged Special Revenues”
confirms that the Commonwealth did not intend to
prevent defaults on GO bonds, but, rather, it has
“allow[ed] those exact defaults to occur.” (See Am.
Compl. ¶¶ 118-19.) Ambac asserts that debt service
on the GO and PRHTA bonds could have been paid,
with enough left over to address truly “essential”
services without “significant impact.” (Am. Compl.
¶¶ 118-119.) Plaintiff also alleges that the
Moratorium Legislation and Moratorium Orders
were not “narrowly tailored,” as they “sweep in vast
sums from across the Commonwealth,” rather than
“identifying select public corporations and discrete
amounts of funds tied to specified debt relief goals,”
and because the Commonwealth failed to limit their
temporal scope. (See id. ¶¶ 120-21.)
Plaintiff’s narrow focus on the feasibility of GO and
revenue bond debt service is inconsistent with the
breadth of the fiscal, public health, safety, welfare
and recovery concerns that combine to form the crisis
the Challenged Actions purport to address. Plaintiff
has not pled facts that support an inference that a

56a
“more moderate course of action” to marshaling
revenue than the “sweep[ing] [of] vast sums from
across the Commonwealth” would have both served
the stated purposes of addressing the critical public
health, safety, and welfare aspects of the crisis, as
well as restoring the Commonwealth’s, and its
instrumentalities’, access to the capital markets. See
Fortuño, 633 F.3d at 47.
Plaintiff similarly attacks the diversion of the
PRHTA Pledged Special Revenues pursuant to the
Fiscal Plan Compliance Act as “not a necessary or
reasonable means of serving an important public
purpose, because less drastic alternatives were
available,” and on the basis that the Fiscal Plan’s
revenue assumptions are unreasonably conservative,
and, overall, the Fiscal Plan’s budgeting fails to
effectuate the Oversight Board’s mandate “to restore
fiscal responsibility and thereby facilitate access to
the capital markets.” (See Am. Compl. ¶¶ 178-83.)
Plaintiff, however, has not proffered facts indicating
the existence of a materially different viable
approach that the Commonwealth could have
adopted in “a more moderate course of action” to
serve the entirety of the “stated purpose” of the
Moratorium Legislation, Moratorium Orders and
Fiscal Plan Compliance Act. See 633 F.3d at 47.
Plaintiff’s allegations do not support a reasonable
inference that any viable alternatives existed that
could have provided for necessary government
services to address the health, safety, welfare and
economic crises, restored access to capital markets
and avoided the impairment of which Plaintiff
complains.

57a
Plaintiff has thus failed to meet its burden of
pleading facts sufficient to allow the Court to draw a
reasonable
inference
that
the
Moratorium
Legislation, Moratorium Orders, and Fiscal Plan
Compliance Act were “unreasonable or unnecessary
to effectuate an important government purpose” and,
as explained above, Plaintiff has failed to allege
plausibly that the Fiscal Plan is an exercise of
Commonwealth legislative power. Accordingly, the
First Claim for Relief is dismissed for failure to state
a claim upon which relief can be granted in so far as
it challenges the constitutionality of the Fiscal Plan,
the Moratorium Legislation, the Moratorium Orders,
and the Fiscal Plan Compliance Act.

2. Fourth Claim for Relief: Sections 303(1)
and Section 303(3) of PROMESA
Plaintiff’s Fourth Claim for Relief asserts that the
Challenged Actions are unlawful and void, as
violating either Section 303(1) or Section 303(3) of
PROMESA. (Am. Compl. ¶ 234.) As explained above,
the Court lacks subject matter jurisdiction of the
Fourth Claim for Relief to the extent it seeks to
invalidate certification of the Fiscal Plan or prohibit
actions predicated on such certification. The Court
has considered the parties’ arguments concerning
preemption by Section 303 of PROMESA and
concludes, for the following reasons, that the
remainder of the Fourth Claim for Relief fails to
state a claim upon which relief can be granted.

58a
a. Section 303(1)
Plaintiff asserts that the Fiscal Plan, Fiscal Plan
Compliance Act, Moratorium Legislation and
Moratorium Orders are expressly preempted by
Section 303(1) of PROMESA, and seeks declaratory
and injunctive relief invalidating the certification of
the Fiscal Plan and blocking implementation of the
other Challenged Actions.11 (Am. Compl. ¶¶ 129-141,
187-193.) Specifically, Plaintiff argues that (i) the
Fiscal Plan, Fiscal Plan Compliance Act, Moratorium
Legislation
and
Moratorium
Orders
each
impermissibly establish a method of “composition of
indebtedness” and (ii) the Moratorium Legislation
and Moratorium Orders constitute impermissible
“moratorium” laws that “prohibit payment of
principal and interest on the [PRHTA Bonds].” (Id.
¶¶ 135-138.) Accordingly, Plaintiff seeks, among
other relief, entry of an order declaring that the
Fiscal Plan, Fiscal Plan Compliance Act, Moratorium
Legislation and Moratorium Orders are preempted
by Section 303 of PROMESA. (Id. ¶ 236.) Defendants
argue that Plaintiff has failed to state a claim
because the Moratorium Legislation and Moratorium
Orders do not dictate the ultimate treatment of
Plaintiff’s claims and, as such, do not “bind” Plaintiff
within the meaning of Section 303(1), which provides
that “a territory law prescribing a method of
composition of indebtedness or a moratorium law,

11

As explained above, Section 106(e) of PROMESA
deprives the Court of subject matter jurisdiction of Plaintiff’s
claims insofar as they attack the certification of the Fiscal Plan
or Oversight Board determinations that are inherent in the
certification of a Fiscal Plan.

59a
but solely to the extent that it prohibits the payment
of principal or interest by an entity not described in
Section 109(b)(2) of title 11, United States Code, may
not bind any creditor of a covered territory or any
covered territorial instrumentality thereof that does
not consent to the composition or moratorium.” (Mot.
at 42-43; PROMESA § 303(1).)
“Express preemption occurs when congressional
intent to preempt state law is made explicit in the
language of a federal statute.” Tobin v. Fed. Exp.
Corp., 775 F.3d 448, 452 (1st Cir. 2014). The
existence of an express preemption clause, however,
“does not immediately end the inquiry.” See Altria
Grp., Inc. v. Good, 555 U.S. 70, 76 (2008). The Court
must first ascertain “the substance and scope of
Congress’ displacement of state law.” (Id.)
“Congressional intent is the principal resource to be
used in defining the scope and extent of an express
preemption clause,” and courts look to the clause’s
“text and context” as well as the “purpose and
history” of the statute. Brown v. United Airlines,
Inc., 720 F.3d 60, 63 (1st Cir. 2013).
Section 303(a) of PROMESA is an express
preemption provision that renders certain territorial
laws non-binding on nonconsenting territorial
creditors. Section 303(1) is substantially similar to
Section 903 of the Bankruptcy Code. See 11 U.S.C.S.
§ 903(1) (LexisNexis 2010 & Supp. 2017) (providing
that “a State law prescribing a method of
composition of indebtedness of such municipality
may not bind any creditor that does not consent to
such composition”). Section 903 of the Bankruptcy
Code was enacted to prevent states from establishing
their own municipal bankruptcy laws. See Puerto

60a
Rico v. Franklin California Tax-Free Tr., 136 S. Ct.
1938, 1944-45 (2016) (explaining that “Congress
enacted [Section 903] expressly pre-empting state
municipal bankruptcy laws.”) Section 303(1) adds a
provision precluding certain aspects of moratorium
laws from binding non-consenting creditors.
Based on a plain reading of the statutory text,
Section 303(1) applies to two types of laws: (i)
territory laws prescribing a method of composition of
indebtedness, and (ii) moratorium laws prohibiting
the payment of principal or interest. PROMESA
§ 303(1). Pursuant to Section 303(1), neither type of
law may bind nonconsenting creditors. Id. The Court
now turns to the question of whether, in light of the
“text and context” of Section 303(1), the Fiscal Plan
Compliance
Act,
Moratorium
Orders,
and
Moratorium Legislation are preempted by that
provision.

i. “Territory Law Prescribing a Method
of Composition of Indebtedness”
A “composition” is an “agreement between a debtor
and two or more creditors for the adjustment or
discharge of an obligation for some lesser amount.”
Franklin California Tax-Free Trust v. Puerto Rico,
85 F. Supp. 3d 577, 597 (2015) (citing BLACK’S LAW
DICTIONARY 346 (10th ed. 2014)). The Fiscal Plan
Compliance
Act,
Moratorium
Orders,
and
12
Moratorium Legislation do not provide for any
12

Defendants argue that the Moratorium Orders do not
qualify as a “territory law,” and therefore are not covered by
Section 303(1) of PROMESA. (Mot. at 42, n. 18.) As explained

61a
adjustment or discharge of the obligations of any
creditor “for some lesser amount” and Plaintiff does
not allege that any challenged measure includes such
a provision. Plaintiff thus fails to plead plausibly
that Section 303(1) applies to preempt the Fiscal
Plan Compliance Act, Moratorium Orders and
Moratorium Legislation.

ii. Moratorium Law
A
“moratorium”
is
a
“[a]n
authorized
postponement, usu[ally] a lengthy one, in the
deadline for paying a debt or performing an
obligation.” BLACK’S LAW DICTIONARY 1101 (9th ed.
2009). The Amended Moratorium Act provides that,
during the emergency period, the Governor shall pay
debt service to the extent (a) possible after all
essential services of the Commonwealth of Puerto
Rico have been provided for, or (b) he is ordered to do
so by the Oversight Board or any other board created
under federal law. Amended Moratorium Act
§ 203(a). The Moratorium Orders, among other
things, declared a state of emergency over the
Commonwealth and certain governmental entities,
including PRHTA, and suspended the payment of
certain debt obligations. As such, the combined effect
of the Amended Moratorium Act and the Moratorium
Orders is to authorize a postponement of the
deadline for payment of principal and interest on a
debt. Thus, the question of whether the Moratorium
above, Plaintiff has pled plausibly that the Moratorium Orders
may properly be treated as Commonwealth laws. Plaintiff has
not done so, however, with respect to the Fiscal Plan.

62a
Legislation and Moratorium Orders are subject to
Section 303(1) of PROMESA turns on whether they
prohibit the payment of principal or interest. The
language of the Moratorium Legislation and
Moratorium Orders does not prohibit the ultimate
payment of principal and interest on the
Commonwealth’s debt obligations, nor do they
prohibit the accrual of interest during the emergency
period. As stated in Part F of the Legislative
Assembly’s preface to the Moratorium Law:
the Act does not provide for a composition or
discharge of debts; instead, all claims and
priorities are preserved, and any unpaid
amounts
on
the
obligations
of
the
Commonwealth and its instrumentalities are
not forgiven and instead are payable, as set
forth in the Act at the end of any moratorium
period to the extent permitted by any
applicable law. . . . Accordingly, the Act seeks
only to empower the Commonwealth to delay
payment on certain obligations while
protecting creditor rights . . . .”
English version of Act No. 21-2016, at 54.
Section 303(1) of PROMESA does not, by its plain
terms, preclude the effectiveness of moratoria that
constitute only temporary suspensions or extensions
of the debtor’s payment obligations. It only declares
that prohibitions of interest or principal payments do
not have binding effects on creditors. To read the
statute as precluding even temporary suspensions or
extensions that do not reduce the ultimate legal
liability of the debtor would fundamentally cripple a
territorial debtor’s ability to benefit from the

63a
breathing space afforded by Title III of PROMESA as
the debtor proceeds toward adjustment of its debt
obligations under federal law.
When considered in the context of PROMESA and
in light of Section 903 of Bankruptcy Code, it is
evident that Section 303(1) of PROMESA was
enacted to bar territories from establishing their own
bankruptcy-like debt restructuring processes. See
COLLIER ON BANKRUPTCY ¶ 903.01 (16th ed. 2017)
(stating that “Section 903 is little more than
Congress’s attempt to proclaim the propriety of
establishing a national, uniform procedure for
adjusting municipal debts.”) The Moratorium
Legislation and Moratorium Orders only authorize
temporary extensions of Plaintiff’s obligations. They
do not empower the Commonwealth to discharge,
cancel or force surrender of any bonds. The
Moratorium Legislation and Moratorium Orders
neither prohibit the payment of principal and
interest nor purport to bind creditors to any
reduction of the outstanding obligations; they are
therefore outside the scope of Section 303(1), and the
Fourth Claim for Relief fails to state a claim upon
which relief may be granted to the extent it is
premised on PROMESA Section 303(1).

b. Section 303(3)
Plaintiff also asserts that the Fiscal Plan and
Moratorium Orders are preempted by Section 303(3)
as unlawful executive orders. (Am. Compl. ¶¶ 12930, 140, 187-93.) Defendants seek the dismissal of
this element of the Fourth Claim for Relief as well,

64a
asserting that Plaintiff fails to state a claim (i) as to
the Fiscal Plan because Section 303(3) does not apply
to acts of the Oversight Board and (ii) as to the
Moratorium Orders because Plaintiff has failed to
plead plausibly that such orders are “unlawful” or
that they have caused a distinct injury. (Opp’n at 4344.) Section 303(3) of PROMESA provides that:
unlawful executive orders that alter, amend,
or modify rights of holders of any debt of the
territory or territorial instrumentality, or that
divert
funds
from
one
territorial
instrumentality to another or to the territory,
shall be preempted by [PROMESA].
48 U.S.C.S. § 2163(3) (LexisNexis 2017).
The statute plainly applies only to “executive
orders” that are also “unlawful.” Plaintiff argues that
the Fiscal Plan (i) constitutes an executive order
“because it was developed and submitted by AAFAF
at the direction and with the oversight of the
Governor” and (ii) is “unlawful” because it violates
the Contracts, Takings, and Due Process Clauses of
the U.S. Constitution. (Am. Compl. ¶ 189; Opp’n at
52.) As explained above, Plaintiff has failed to state a
claim with respect to its First Claim for Relief
(Contracts Clause claim), and the Court lacks subject
matter jurisdiction of the Second Claim for Relief
(Takings and Due Process claims). Because Plaintiff
has not stated viable claims of unlawful behavior, it
is unnecessary for the Court to reach the question of
whether the Fiscal Plan constitutes an executive
order.

65a
There is, however, no dispute that the Moratorium
Orders constitute “executive orders” that are
potentially subject to Section 303(3) of PROMESA.
Plaintiff argues that the Moratorium Orders are
unlawful, within the meaning of Section 303(3) of
PROMESA, because they are derived from the
Moratorium Legislation that Plaintiff alleges is
unconstitutional. (Opp’n at 52-53.) For the reasons
explained above, Plaintiff has failed to state a claim
with respect to the First Claim for Relief of the
Amended Complaint, and the Court lacks subject
matter jurisdiction of the Second Claim for Relief.
Because Plaintiff has failed to state plausible, ripe
claims that the Moratorium Orders and Moratorium
Legislation are unconstitutional, it fails to state a
claim upon which relief may be granted in connection
with PROMESA Section 303(3).
As noted above, the Court has already determined
that it lacks subject matter jurisdiction of the Fourth
Claim for Relief to the extent it is seeks to invalidate
certification of the Fiscal Plan or prohibit actions
predicated on such certification. The remainder of
Plaintiff’s Fourth Claim for Relief is dismissed
pursuant to Federal Rule of Civil Procedure 12(b)(6).
3. Fifth Claim for Relief: Section 407 of
PROMESA
Plaintiff’s Fifth Claim for Relief seeks an order (i)
declaring that “any transferee of property” that was
transferred pursuant to a Challenged Action is
“liable for value of such transfer[]” pursuant to
Section 407 of PROMESA, and (ii) compelling the
return of all funds for which the Defendants are
found liable pursuant to Section 407 of PROMESA.

66a
(Am. Compl. ¶ 244.) Defendants move to dismiss this
claim in its entirety, arguing that relief under
Section 407 of PROMESA is unavailable because the
Title III automatic stay is in effect. (Mot. at 45).
Alternatively, to the extent that the claim is not
barred by the automatic stay, Defendants argue that
Plaintiff has failed to state a claim because it has
failed to allege a violation of a law that either (i)
gives rise to a valid security interest, or (ii) assures a
transfer of assets to PRHTA for the benefit of the
PRHTA Bondholders.
Section 407(a) of PROMESA provides that:
While an Oversight Board for Puerto Rico is in
existence, if any property of any territorial
instrumentality of Puerto Rico is transferred
in violation of applicable law under which any
creditor has a valid pledge of, security interest
in, or lien on such property, or which deprives
any such territorial instrumentality of
property in violation of applicable law
assuring the transfer of such property to such
territorial instrumentality for the benefit of its
creditors, then the transferee shall be liable
for the value of such property.
48 U.S.C.S. § 2195(a) (LexisNexis 2017). Section
407(b), in turn, provides creditors with a mechanism
to enforce rights under Section 407. Specifically, it
provides as follows:
A creditor may enforce rights under this
section by bringing an action in the United
States District Court for the District of Puerto
Rico after the expiration or lifting of the stay

67a
of section 405, unless a stay under title III is
in effect.
48 U.S.C.S. § 2195(b) (LexisNexis 2017). On its face,
Section 407(b) of PROMESA expressly bars creditor
enforcement actions when, as here, a stay is in effect
under Title III.
It is undisputed that a stay is currently in effect
pursuant to Section 362 of the Bankruptcy Code, as
made applicable to these Title III proceedings
pursuant to Section 301 of PROMESA. In an attempt
to circumvent this express limitation on the
availability of the Section 407 cause of action,
Plaintiff asserts that the PRHTA Pledged Special
Revenues are exempt from the automatic stay and
thus are exempt from Section 407(b)’s enforcement
restrictions. (Opp’n at 54.) As explained in Assured,
Section 922(d) of the Bankruptcy Code is a
permissive statutory provision that merely excepts
the “application” of special revenues from the
automatic stay and does not grant relief from the
stay for enforcement of claims of right to such
revenues. Assured at 16-24. Section 922(d) does not
provide relief from the Title III automatic stay that
would affect the availability of the Section 407 cause
of action, which is by its terms simply unavailable
when “a stay under title III is in effect.”
Plaintiff’s alternative argument that Section 407(b)
does not bar a “request for declaratory relief” equally
lacks merit. Section 407(b) creates a specific liability
and a specific, limited cause of action to enforce such
a liability. The liability is “for the value” of the
improperly transferred property and, as explained
above, the cause of action is not available when a

68a
stay is in effect under Title III. Recognition of a
cause of action for declaratory relief based on Section
407 when the Section 407 cause of action is
precluded would be facially inconsistent with the
statute. Accordingly, the Fifth Claim for Relief is
hereby dismissed in its entirety, without prejudice,
because the automatic stay is currently in effect and
renders unavailable any cause of action pursuant to
Section 407 of PROMESA.

4. Sixth Claim for Relief: Sections 922 and
928 of the Bankruptcy Code
In the Sixth Claim for Relief, Plaintiff requests: (i)
a declaratory judgment stating that application of
the PRHTA Pledged Special Revenues does not
violate the automatic stay and that Defendants’
failure to remit post-petition payments to the
PRHTA Bondholders violates Sections 922(d) and
928(a) of the Bankruptcy Code; and (ii) an injunction
ordering Defendants to remit the PRHTA Pledged
Special Revenues to the PRHTA Bondholders and to
not take any action that could impair the transfer of
such revenues to the PRHTA Bondholders. (Am.
Compl. ¶¶ 250-52.) Defendants move to dismiss
Plaintiff’s claims for injunctive and declaratory relief
regarding Defendants’ alleged obligation pursuant to
Sections 922(d) and 928(a) to remit payments to
PRHTA Bondholders during the pendency of these
Title III proceedings, arguing that those Bankruptcy
Code sections, which are incorporated into Title III
by Section 301 of PROMESA, do not require PRHTA
to make payments during the pendency of the Title
III proceeding. (Opp’n at 47-50). Because the

69a
viability of Plaintiff’s claims turns on whether the
cited Bankruptcy Code sections mandate current
payments, the Court leaves aside for the moment the
question of whether Plaintiff has a valid security
interest in pledged special revenue and examines in
the first instance the parties’ contentions concerning
Sections 928 and 922(d) of the Bankruptcy Code.
Plaintiff argues that Section 928(a) of the
Bankruptcy Code not only overrides the general rule
of Bankruptcy Code Section 552(a) (which provides
that property acquired by a debtor after the
commencement of a bankruptcy proceeding is not
subject to liens resulting from pre-petition security
agreements), by providing for attachment of liens
post-petition to the extent they secure certain special
revenue bonds, but also requires, either alone or in
concert with Section 922(d), continuity of payments
on such bonds during the Title III proceeding. (Am.
Compl. ¶ 199-204.) Section 928 reads in its entirety
as follows:
(a) Notwithstanding section 552(a) of [the
Bankruptcy Code] and subject to subsection (b)
of this section, special revenues acquired by
the debtor after the commencement of the case
shall remain subject to any lien resulting from
any security agreement entered into by the
debtor before the commencement of the case.
(b) Any such lien on special revenues, other
than municipal betterment assessments,
derived from a project or system shall be
subject to the necessary operating expenses of
such project or system, as the case may be.

70a
11 U.S.C.S § 928 (LexisNexis 2010). As explained in
Assured, Section 928 of the Bankruptcy Code does
not mandate the turnover of special revenues. See
Assured at 19. Rather, “[t]he statute clearly and
simply provides that certain pre-petition liens will
remain in place after the filing of the petition,
notwithstanding Section 552(a)’s general protection
of after-acquired property from pre-petition liens.”
See Assured at 18.
Plaintiff’s assertions that Section 922(d) of the
Bankruptcy Code requires Defendants to turn over
the revenues allegedly securing the PRHTA Bonds,
and that Section 922(d) exempts bondholder
enforcement actions from the automatic stays
otherwise in effect pursuant to Sections 362(a) and
922(a) of the Bankruptcy Code, are also unavailing.
Section 922(d) does not require “debtors, or third
parties holding special revenues, to apply the
revenues to outstanding obligations.” See Assured at
20. Moreover, Section 922(d) only excepts the
“application” of special revenues from the automatic
stay, and does not address other types of
enforcement actions that are stayed by Sections
362(a) and 922(a). See Assured at 23. Therefore,
Section 922(d) does not except actions to enforce
special revenue liens.
Because neither Section 922(d) nor Section 928
requires or empowers the Court to order the
payment of the pledged special revenues to the
PRHTA Bondholders, the Sixth Claim for Relief fails

71a
to state a claim upon which relief may be granted
and is therefore dismissed in its entirety.13
5. Seventh Claim for Relief: Reserve Revenues
In Seventh Claim for Relief, Plaintiff seeks orders
declaring that (i) all funds held in the Reserve
Accounts are property of the PRHTA Bondholders
and (ii) PRHTA lacks an interest sufficient to
prevent funds held in the Reserve Accounts from
flowing to the PRHTA Bondholders, unless and until
all outstanding PRHTA Bonds have been fully
retired or defeased. (Am. Compl. ¶¶ 259-60.) The
structure of the allegations in the Seventh Claim for
Relief, particularly in paragraph 255 of the Amended
Complaint, suggests that Plaintiff is proceeding on
three theories of entitlement to the reserve funds—
first, that the PRHTA Bondholders own outright the
funds in the Reserve Account (See Am. Comp. ¶ 118
(“all funds in the Reserve Accounts are property of
the [PR]HTA Bondholders”), second, that the PRHTA
Bondholders are beneficiaries of a trust that holds
the funds in the Reserve Account (see id. (“all funds
in the Reserve Accounts are . . . held in trust for their
benefit”) and, third, that the PRHTA Bondholders
hold a lien on the funds in the Reserve Account (id.
(“all funds in the Reserve Accounts are . . . subject to
13

Plaintiff’s request, in Sixth Claim for Relief, for an
order that “the filing of [a] Title III petition[] by [PRHTA] does
not operate as a stay of the application of [PR]HTA Pledged
Special Revenues to the repayment of the [PR]HTA [r]evenue
[b]onds” (Am. Compl. ¶ 250) does not, in and of itself, frame a
justiciable case or controversy. There appears to be no dispute
that the statute says what it says, to wit, that application of
pledged special revenues is not stayed. Thus, paragraph 250
seeks a redundant advisory opinion.

72a
a lien in their favor”).) As explained above, the Court
lacks subject matter jurisdiction of the Seventh
Claim for Relief to the extent it is premised solely on
the existence of a lien. The Court will now address
the viability of Plaintiff’s ownership- and trust-based
theories.
a. Bondholders
Owners

as

Reserve

Account

Plaintiff alleges that it (or its subrogors) own the
Reserve Account funds, and, on the basis of such
alleged ownership, assert that neither the automatic
stay nor Section 305 of PROMESA presents a barrier
to collection of the funds because they are not the
property of any Title III debtor. Indeed, Plaintiff
asserts that the “funds held in the Reserve Accounts
are the exclusive property of the [PR]HTA
Bondholders” and not of the Commonwealth. (Am.
Compl. ¶¶ 15, 209.)
Section 401 of the 1968 Resolution provides, in
relevant part, that:
The moneys in [the Reserve] Account[] shall be
held by the Fiscal Agent in trust and applied
as hereinafter provided with regard to . . . such
. . . Account and, pending such application,
shall be subject to a lien and charge in favor of
the holders of the bonds issued and
outstanding under this Resolution and for the
further security of such holders until paid out
or transferred as herein provided.
(Docket Entry No. 51-4 at 41.) Section 401 of the
1998 Resolution includes language that is
substantially similar. (See Docket Entry No. 51-5 at

73a
47.) As explained in Assured, the provisions of the
Resolutions are devoid of language that could
plausibly support an inference that PRHTA has
conferred a full and exclusive ownership interest in
Reserve Account funds on the PRHTA Bondholders.
See Assured at 25-26. The Court finds that Plaintiff
has failed to plead plausibly that the PRHTA
Bondholders hold an outright ownership interest in
the Reserve Accounts.

b. Bondholders as Beneficiaries of a Trust
The Court now turns to Plaintiff’s assertion that
the funds held in the Reserve Accounts are “held in
trust” by the fiscal agent, BNYM, for the benefit of
the PRHTA Bondholders. (See, e.g., Am. Compl.
¶¶ 207, 255.) Plaintiff relies on Sections 401 and 501
of the 1968 Resolution, as well as Sections 401 and
410 of the 1998 Resolution.14 Section 501 of the 1968
Resolution is titled “Deposits Constitute Trust
Funds; Security for Deposits” and provides, in
relevant part, that “[a]ll moneys deposited with the
Fiscal Agent under the provisions of [the] Resolution
shall be held in trust . . . and shall not be subject
to lien or attachment by any creditor of [PRHTA].”
Id. § 501 (emphasis added) (Docket Entry No. 51-4).
The Section goes on to state that “[a]ll moneys
deposited with the Fiscal Agent [] shall be
continuously secured, for the benefit of the Authority
and the holders of the bonds . . . .” Id. Section 410 of
14

The relevant language of Section 401 of the 1968
Resolution is substantially similar to that of Section 401 of the
1998 Resolution.

74a
the 1998 Resolution provides that “moneys held for
the credit” of the relevant Reserve Account “shall be
held in trust and disbursed by the Fiscal Agent.”
1998 Resolution § 410 (Docket Entry No. 51-5).
Sections 207 and 711 of the 1998 Resolution also
make reference to “trusts [] created” by the
resolution. 1998 Resolution §§ 207, 711.
Defendants argue that the use of the word “trust”
in the resolutions is not, alone, sufficient to create a
trust under the law of Puerto Rico, and that the full
nature of the contemplated transaction should be
considered. Defendants assert that the funds in the
Reserve Accounts are only “held in trust first for the
‘further security’ of the [PRHTA] [B]ondholders and
then to be disbursed to PRHTA once the bondholders
are fully paid” and that, consequently, the funds are
“not held in trust for the sole purpose of paying the
bondholders.” (Mot. at 52-53 (citing 1968 Resolution
§ 401; 1998 Resolution § 401).)
As explained in Assured, while “multiple
interpretations could plausibly be supported by the
documentation and the allegations of the []
Complaint, each contemplates that PRHTA has title
or at minimum some contingent reversionary
beneficial interest in the trust corpus.” (See Assured
at 28.) As such, “PROMESA Section 305’s
prohibitions on interference with Debtor property
interests, revenues and use and enjoyment of
income-producing property deprive this Court of
power to interfere with the Debtors’ dealings with
the Reserve Fund property.” (See Assured at 28.) The
Seventh Claim for Relief therefore fails to state a
claim upon which relief may be granted to the extent

75a
it is premised on the contention that the Reserve
Fund assets are held in trust for bondholders.
CONCLUSION
For the foregoing reasons, Defendants’ motion to
dismiss the First, Second, Fourth, Fifth, Sixth, and
Seventh Claims for Relief asserted in the Amended
Complaint is granted. Plaintiff’s Second Claim for
Relief is dismissed pursuant to Federal Rule of Civil
Procedure 12(b)(1). The First and Fourth Claims for
Relief are dismissed pursuant to Rule 12(b)(1) to the
extent they seek to invalidate the Fiscal Plan on the
basis of noncompliance with certification-related
provisions of PROMESA or challenge the Oversight
Board’s certification decision, and are dismissed
pursuant to Federal Rule of Civil Procedure 12(b)(6)
in all other respects. Plaintiff’s Fifth and Sixth
Claims for Relief are dismissed pursuant to Rule
12(b)(6). The Seventh Claim for Relief is dismissed
pursuant to Rule 12(b)(6) to the extent that Claim for
Relief is premised on a claim of outright PRHTA
Bondholder ownership or trust beneficiary status as
to the funds in the Reserve Accounts and is
dismissed pursuant to Rule 12(b)(1) to the extent it is
premised on a lien on the Reserve Accounts. The
Third Claim for Relief has been withdrawn. In light
of the foregoing disposition of Plaintiff’s claims, the
evidentiary objections that were asserted by the
parties are moot and need not be addressed. This
Opinion and Order resolves docket entry nos. 48, 50,
and 51 in 17 AP 159.
The Clerk of Court is directed to enter judgment
accordingly and close this adversary proceeding.

76a
SO ORDERED.

Dated: February 27, 2018

/s/ Laura Taylor Swain
LAURA TAYLOR SWAIN
United States District Judge

77a
APPENDIX C
_________
STATUTORY PROVISIONS INVOLVED
_________
1.

11 U.S.C. § 101 provides in pertinent part:

Definitions
In this title the following definitions shall apply:
*

*

*

*

*

(40) The term “municipality” means political
subdivision or public agency or instrumentality of a
State.
*
2.

*

*

*

*

11 U.S.C. § 109 provides in pertinent part:

Who may be a debtor
*

*

*

*

*

(c) An entity may be a debtor under chapter 9 of
this title if and only if such entity-(1) is a municipality;
(2) is specifically authorized, in its capacity as a
municipality or by name, to be a debtor under
such chapter by State law, or by a governmental
officer or organization empowered by State law to
authorize such entity to be a debtor under such
chapter;
(3) is insolvent;
(4) desires to effect a plan to adjust such debts;
and
(5)(A) has obtained the agreement of creditors
holding at least a majority in amount of the

78a
claims of each class that such entity intends to
impair under a plan in a case under such chapter;
(B) has negotiated in good faith with creditors
and has failed to obtain the agreement of
creditors holding at least a majority in amount of
the claims of each class that such entity intends
to impair under a plan in a case under such
chapter;
(C) is unable to negotiate with creditors because
such negotiation is impracticable; or
(D) reasonably believes that a creditor may
attempt to obtain a transfer that is avoidable
under section 547 of this title.
*
3.

*

*

*

*

11 U.S.C. § 362 provides in pertinent part:

Automatic stay
(a) Except as provided in subsection (b) of this
section, a petition filed under section 301, 302, or 303
of this title, or an application filed under section
5(a)(3) of the Securities Investor Protection Act of
1970, operates as a stay, applicable to all entities, of(1) the commencement or continuation, including
the issuance or employment of process, of a
judicial, administrative, or other action or
proceeding against the debtor that was or could
have been commenced before the commencement
of the case under this title, or to recover a claim
against the debtor that arose before the
commencement of the case under this title;
(2) the enforcement, against the debtor or against
property of the estate, of a judgment obtained

79a
before the commencement of the case under this
title;
(3) any act to obtain possession of property of the
estate or of property from the estate or to exercise
control over property of the estate;
(4) any act to create, perfect, or enforce any lien
against property of the estate;
(5) any act to create, perfect, or enforce against
property of the debtor any lien to the extent that
such lien secures a claim that arose before the
commencement of the case under this title;
(6) any act to collect, assess, or recover a claim
against the debtor that arose before the
commencement of the case under this title;
(7) the setoff of any debt owing to the debtor that
arose before the commencement of the case under
this title against any claim against the debtor;
and
(8) the commencement or continuation of a
proceeding before the United States Tax Court
concerning a tax liability of a debtor that is a
corporation for a taxable period the bankruptcy
court may determine or concerning the tax
liability of a debtor who is an individual for a
taxable period ending before the date of the order
for relief under this title.
*
4.

*

*

*

*

11 U.S.C. § 904 provides:

Limitation on jurisdiction and powers of court
Notwithstanding any power of the court, unless the
debtor consents or the plan so provides, the court

80a
may not, by any stay, order, or decree, in the case or
otherwise, interfere with-(1) any of the political or governmental powers of
the debtor;
(2) any of the property or revenues of the debtor;
or
(3) the debtor's use or enjoyment of any incomeproducing property.
5.

11 U.S.C. § 922 provides:

Automatic stay of
against the debtor

enforcement

of

claims

(a) A petition filed under this chapter operates as a
stay, in addition to the stay provided by section 362
of this title, applicable to all entities, of-(1) the commencement or continuation, including
the issuance or employment of process, of a
judicial, administrative, or other action or
proceeding against an officer or inhabitant of the
debtor that seeks to enforce a claim against the
debtor; and
(2) the enforcement of a lien on or arising out of
taxes or assessments owed to the debtor.
(b) Subsections (c), (d), (e), (f), and (g) of section
362 of this title apply to a stay under subsection (a)
of this section the same as such subsections apply to
a stay under section 362(a) of this title.
(c) If the debtor provides, under section 362, 364,
or 922 of this title, adequate protection of the
interest of the holder of a claim secured by a lien on

81a
property of the debtor and if, notwithstanding such
protection such creditor has a claim arising from the
stay of action against such property under section
362 or 922 of this title or from the granting of a lien
under section 364(d) of this title, then such claim
shall be allowable as an administrative expense
under section 503(b) of this title.
(d) Notwithstanding section 362 of this title and
subsection (a) of this section, a petition filed under
this chapter does not operate as a stay of application
of pledged special revenues in a manner consistent
with section 927 of this title to payment of
indebtedness secured by such revenues.
6.

11 U.S.C. § 928 provides:

Post petition effect of security interest
(a) Notwithstanding section 552(a) of this title and
subject to subsection (b) of this section, special
revenues acquired by the debtor after the
commencement of the case shall remain subject to
any lien resulting from any security agreement
entered into by the debtor before the commencement
of the case.
(b) Any such lien on special revenues, other than
municipal betterment assessments, derived from a
project or system shall be subject to the necessary
operating expenses of such project or system, as the
case may be.
7.

11 U.S.C. § 943 provides:

Confirmation
(a) A special tax payer may object to confirmation
of a plan.

82a
(b) The court shall confirm the plan if-(1) the plan complies with the provisions of this
title made applicable by sections 103(e) and 901 of
this title;
(2) the plan complies with the provisions of this
chapter;
(3) all amounts to be paid by the debtor or by any
person for services or expenses in the case or
incident to the plan have been fully disclosed and
are reasonable;
(4) the debtor is not prohibited by law from
taking any action necessary to carry out the plan;
(5) except to the extent that the holder of a
particular claim has agreed to a different
treatment of such claim, the plan provides that on
the effective date of the plan each holder of a
claim of a kind specified in section 507(a)(2) of
this title will receive on account of such claim
cash equal to the allowed amount of such claim;
(6) any regulatory or electoral approval necessary
under applicable nonbankruptcy law in order to
carry out any provision of the plan has been
obtained, or such provision is expressly
conditioned on such approval; and
(7) the plan is in the best interests of creditors
and is feasible.

83a
8.
48 U.S.C. § 2121 provides in pertinent
part:
Financial Oversight and Management Board
(a) Purpose
The purpose of the Oversight Board is to provide a
method for a covered territory to achieve fiscal
responsibility and access to the capital markets.
*

*

*

*

*

9.
48 U.S.C. § 2141 provides in pertinent
part:
Approval of fiscal plans
*

*

*

*

*

(b) Requirements
(1) In general
A Fiscal Plan developed under this section shall,
with respect to the territorial government or
covered territorial instrumentality, provide a
method to achieve fiscal responsibility and access
to the capital markets, and-(A) provide for estimates of revenues and
expenditures in conformance with agreed
accounting standards and be based on-(i) applicable laws; or
(ii) specific bills that require enactment in order
to reasonably achieve the projections of the
Fiscal Plan;
(B) ensure the funding of essential public
services;

84a
(C) provide adequate funding for public pension
systems;
(D) provide for the elimination of structural
deficits;
(E) for fiscal years covered by a Fiscal Plan in
which a stay under subchapters III or IV is not
effective, provide for a debt burden that is
sustainable;
(F) improve fiscal governance, accountability, and
internal controls;
(G) enable the achievement of fiscal targets;
(H) create independent forecasts of revenue for
the period covered by the Fiscal Plan;
(I) include a debt sustainability analysis;
(J) provide for capital
investments necessary to
growth;

expenditures and
promote economic

(K)
adopt
appropriate
recommendations
submitted by the Oversight Board under section
2145(a) of this title;
(L) include such additional information as the
Oversight Board deems necessary;
(M) ensure that assets, funds, or resources of a
territorial instrumentality are not loaned to,
transferred to, or otherwise used for the benefit of
a covered territory or another covered territorial
instrumentality of a covered territory, unless
permitted by the constitution of the territory, an
approved plan of adjustment under subchapter
III, or a Qualifying Modification approved under
subchapter VI; and

85a
(N) respect the relative lawful priorities or lawful
liens, as may be applicable, in the constitution,
other laws, or agreements of a covered territory or
covered territorial instrumentality in effect prior
to June 30, 2016.
*

*

*

*

*

10.
48 U.S.C. § 2161 provides in pertinent
part:
Applicability of other laws; definitions
(a) Sections applicable to cases under this
subchapter
Sections 101 (except as otherwise provided in this
section), 102, 104, 105, 106, 107, 108, 112, 333, 344,
347(b), 349, 350(b), 351, 361, 362, 364(c), 364(d),
364(e), 364(f), 365, 366, 501, 502, 503, 504, 506,
507(a)(2), 509, 510, 524(a)(1), 524(a)(2), 544, 545, 546,
547, 548, 549(a), 549(c), 549(d), 550, 551, 552, 553,
555, 556, 557, 559, 560, 561, 562, 902 (except as
otherwise provided in this section), 922, 923, 924,
925, 926, 927, 928, 942, 944, 945, 946, 1102, 1103,
1109, 1111(b), 1122, 1123(a) (1), 1123(a)(2),
1123(a)(3), 1123(a)(4), 1123(a)(5), 1123(b), 1123(d),
1124, 1125, 1126(a), 1126(b), 1126(c), 1126(e), 1126(f),
1126(g), 1127(d), 1128, 1129(a)(2), 1129(a)(3),
1129(a)(6), 1129(a)(8), 1129(a)(10), 1129(b)(1),
1129(b)(2)(A), 1129(b)(2)(B), 1142(b), 1143, 1144,
1145, and 1146(a) of Title 11 apply in a case under
this subchapter and section 930 of Title 11 applies in
a case under this subchapter; however, section 930
shall not apply in any case during the first 120 days
after the date on which such case is commenced
under this subchapter.

86a
*
11.

*

*

*

*

48 U.S.C. § 2163 provides:

Reservation of territorial power to control
territory and territorial instrumentalities
Subject to the limitations set forth in subchapters I
and II of this chapter, this subchapter does not limit
or impair the power of a covered territory to control,
by legislation or otherwise, the territory or any
territorial instrumentality thereof in the exercise of
the political or governmental powers of the territory
or territorial instrumentality, including expenditures
for such exercise, but whether or not a case has been
or can be commenced under this subchapter-(1) a territory law prescribing a method of
composition of indebtedness or a moratorium law,
but solely to the extent that it prohibits the
payment of principal or interest by an entity not
described in section 109(b)(2) of Title 11, may not
bind any creditor of a covered territory or any
covered territorial instrumentality thereof that
does not consent to the composition or
moratorium;
(2) a judgment entered under a law described in
paragraph (1) may not bind a creditor that does
not consent to the composition; and
(3) unlawful executive orders that alter, amend,
or modify rights of holders of any debt of the
territory or territorial instrumentality, or that
divert funds from one territorial instrumentality
to another or to the territory, shall be preempted
by this chapter.

87a
12.

48 U.S.C. § 2164 provides:

Petition and proceedings relating to petition
(a) Commencement of case
A voluntary case under this subchapter is
commenced by the filing with the district court of a
petition by the Oversight Board pursuant to the
determination under section 2146 of this title.
(b) Objection to petition
After any objection to the petition, the court, after
notice and a hearing, may dismiss the petition if
the petition does not meet the requirements of this
subchapter; however, this subsection shall not
apply in any case during the first 120 days after
the date on which such case is commenced under
this subchapter.
(c) Order for relief
The commencement of a case under this subchapter
constitutes an order for relief.
(d) Appeal
The court may not, on account of an appeal from an
order for relief, delay any proceeding under this
subchapter in the case in which the appeal is being
taken, nor shall any court order a stay of such
proceeding pending such appeal.
(e) Validity of debt
The reversal on appeal of a finding of jurisdiction
shall not affect the validity of any debt incurred
that is authorized by the court under section 364(c)
or 364(d) of Title 11.

88a
(f) Joint
permitted

filing

of

petitions

and

plans

The Oversight Board, on behalf of debtors under
this subchapter, may file petitions or submit or
modify plans of adjustment jointly if the debtors
are affiliates; provided, however, that nothing in
this subchapter shall be construed as authorizing
substantive consolidation of the cases of affiliated
debtors.
(g) Joint administration of affiliated cases
If the Oversight Board, on behalf of a debtor and
one or more affiliates, has filed separate cases and
the Oversight Board, on behalf of the debtor or one
of the affiliates, files a motion to administer the
cases jointly, the court may order a joint
administration of the cases.
(h) Public safety
This chapter may not be construed to permit the
discharge of obligations arising under Federal
police or regulatory laws, including laws relating to
the environment, public health or safety, or
territorial laws implementing such Federal legal
provisions. This includes compliance obligations,
requirements under consent decrees or judicial
orders, and obligations to pay associated
administrative, civil, or other penalties.
(i) Voting on debt adjustment plans not
stayed
Notwithstanding any provision in this subchapter
to the contrary, including sections of Title 11
incorporated by reference, nothing in this section

89a
shall prevent the holder of a claim from voting on
or consenting to a proposed modification of such
claim under subchapter VI of this chapter.
13.

48 U.S.C. § 2165 provides:

Limitation on jurisdiction and powers of court
Subject to the limitations set forth in subchapters I
and II of this chapter, notwithstanding any power of
the court, unless the Oversight Board consents or the
plan so provides, the court may not, by any stay,
order, or decree, in the case or otherwise, interfere
with-(1) any of the political or governmental powers of
the debtor;
(2) any of the property or revenues of the debtor;
or
(3) the use or enjoyment by the debtor of any
income-producing property.

